     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION

                    DEPARTMENT OF STATE OFFICE OF INSPECTOR GENERAL




 The U.S. Civilian Uplift in Afghanistan Has Cost Nearly
$2 Billion, and State Should Continue to Strengthen Its
Management and Oversight of the Funds Transferred to
                     Other Agencies




                                    September 8, 2011




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift
      OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION

                      DEPARTMENT OF STATE OFFICE OF INSPECTOR GENERAL


September 8, 2011
Executive Agencies:
This report discusses the results of a performance audit of the implementation and sustainability of the
U.S. civilian uplift in Afghanistan. This report includes two recommendations to the Department of
State’s Assistant Secretary for South and Central Asian Affairs.

When preparing the final report, we considered comments from the Secretary of State’s Special
Representative for Afghanistan and Pakistan, the Department of State’s Bureau of Resource
Management, and the Department of Homeland Security. The Special Representative for Afghanistan
and Pakistan concurred with the report’s recommendations and identified planned actions to resolve
them. The Bureau of Resource Management stated that it did not object to one of our
recommendations; it did not address the other. The Department of Homeland Security did not
comment directly on the recommendations. These comments are reproduced in appendices V-VII,
respectively.

A summary of this report is on page iii. This performance audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction and the Department of State Office of
Inspector General under the authority of Public Law No. 110-181, as amended, the Inspector General
Act of 1978, and the Inspector General Reform Act of 2008.




Steven Trent                                                    Harold Geisel
Acting Special Inspector General                                Deputy Inspector General
 for Afghanistan Reconstruction                                 U.S. Department of State
                                                                 Office of Inspector General




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                         Page i
List of Addresses

The Honorable Hillary Rodham Clinton
Secretary of State
The Honorable Leon Panetta
Secretary of Defense
The Honorable Ryan C. Crocker
U.S. Ambassador to Afghanistan
The Honorable Eric H. Holder, Jr.
Attorney General
The Honorable Tom Vilsack
Secretary of Agriculture
The Honorable Gary Locke
Secretary of Commerce
The Honorable Kathleen Sebelius
Secretary of Health and Human Services
The Honorable Janet Napolitano
Secretary of Homeland Security
The Honorable Ray LaHood
Secretary of Transportation
The Honorable Timothy F. Geithner
Secretary of the Treasury
Dr. Rajiv Shah
Administrator, U.S. Agency for International Development
Robert O. Blake Jr.
Assistant Secretary, Bureau of South and Central Asian
  Affairs Department of State
Dr. S. Ken Yamashita
USAID Mission Director for Afghanistan




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift   Page ii
                 Special Inspector General for          SIGAR Audit-11-17& State OIG AUD/SI-11-45 Sept. 2011
                 Afghanistan Reconstruction               The U.S. Civilian Uplift in Afghanistan Has Cost Nearly
                              and                        $2 Billion, and State Should Continue to Strengthen Its
                State Office of Inspector                Management and Oversight of the Funds Transferred to
                            General                                           Other Agencies
What SIGAR and the Department of State OIG Reviewed
In 2009, President Obama announced a new, comprehensive U.S. strategy for Afghanistan aimed at disrupting,
dismantling, and defeating al-Qaeda. A key element of the strategy is the expansion of civilian-led efforts to build
Afghan governing capacity at all levels, improve the rule of law, and initiate sustainable economic growth. A significant
increase or “uplift” in U.S. civilian employees deployed to Afghanistan supports this effort. In addition to significant
infrastructure and security costs, it costs the U.S. government between about $410,000 and $570,000 to deploy one
employee to Afghanistan for 1 year. Despite this cost, no agency has comprehensively assessed the cost of establishing
and sustaining the civilian uplift or the mechanisms in place to ensure uplift funds are used appropriately. SIGAR and
State OIG jointly conducted an audit to (1) determine the number of personnel and associated costs of the civilian
uplift, (2) evaluate State’s mechanisms to transfer funds to other agencies to support civilian uplift personnel, and
(3) assess the costs of sustaining and supporting the civilian presence in Afghanistan and State’s plans to address these
costs. To address these objectives, we collected data from all agencies that have deployed uplift personnel,
interviewed officials from these agencies, and reviewed inter- and intra-agency documentation. We conducted work in
Washington, D.C., and Kabul, Afghanistan, from October 2010 to July 2011, in accordance with generally accepted
government auditing standards.
What SIGAR and the Department of State OIG Found
Since early 2009, U.S. agencies have nearly tripled the number of civilians deployed to Afghanistan under Chief of
Mission authority at a cost of nearly $2 billion. The number of U.S. civilian employees deployed to Afghanistan
increased from 320 in early 2009 to 1,040 personnel by June 2011. As the primary agency responsible for funding the
civilian uplift and providing safe and functional working and living conditions for all agencies, the Department of State
(State) incurred the majority of the $1.7 billion obligated to support the uplift, in addition to security costs.
Congress authorized State to transfer funds to other agencies to support operations in and assistance for Afghanistan,
and SIGAR and State OIG found that State has not taken sufficient steps to ensure that State funds transferred to other
agencies are used for their intended purposes. The Foreign Affairs Manual indicates that obligations should be
supported by evidence of binding agreements in writing between U.S. agencies regarding the use of funds. In addition,
government-wide internal control standards highlight the importance of agency monitoring to ensure funds are
expended for their intended purposes. However, we found that State had neither established formal mechanisms with
other agencies regarding their use of civilian uplift funds nor monitored how agencies spent funds and instead relied on
informal communications such as emails and meetings. As a result, this increased the risk that funds would not be
spent for their intended purpose. In one instance, we determined that the Department of Transportation
(Transportation) did not know whether $3.5 million in State transfers were authorized for training or other purposes,
and as a result Transportation cancelled plans to utilize the funding.
State and other agencies are likely to experience increased costs related to an expanded civilian presence in
Afghanistan, and State faces significant challenges in planning to address these costs. First, the U.S. military’s
withdrawal from Afghanistan will likely lead to cost increases for State due to key military security functions that State
will assume. Second, a legislative proposal to standardize pay and benefits for all civilians deployed to Afghanistan
could also result in increased costs for civilian agencies. Third, the opening of two consulates in Afghanistan could
increase costs due to security and housing requirements. Although officials in State’s Bureau of South and Central Asian
Affairs have started planning to address the costs of supporting and sustaining the civilian presence in Afghanistan, they
face a number of planning challenges, such as budget uncertainty and the absence of details on the expected size of the
civilian presence in Afghanistan in coming years.
What SIGAR and the State OIG Recommends
SIGAR and State OIG are making two recommendations to the State Department’s Bureau of South and Central Asian
Affairs to ensure that uplift funds are used for their intended purpose and to recover $3.5 million in unused funds from
Transportation. State agreed to implement formal agreements with agencies receiving transfers, and State indicated
the agreements will include reporting requirements and return of unused funds. State and Transportation officials have
indicated the $3.5 million in unused funds will be returned to the U.S. Treasury.
                 For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil or
                                  State OIG Public Affairs at (202) 663-0380 or burgess@state.gov


SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                            Page iii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
The Number of Civilian Employees Assigned to Afghanistan Has Increased by
    720 Since 2009, at an Estimated Cost of Nearly $2 Billion ..................................................................... 5
State Has Not Developed Formal Agreements to Transfer and Oversee Funds
    Provided to Other Agencies ................................................................................................................. 11
The Cost of Supporting and Sustaining the Civilian Presence in Afghanistan Will
    Likely Increase, and State Faces a Number of Related Planning Challenges ....................................... 13
Conclusion ................................................................................................................................................... 15
Recommendations ...................................................................................................................................... 16
Agency Comments on a Draft of This Report.............................................................................................. 16
Appendix I: Scope and Methodology ......................................................................................................... 18
Apppendix II: Costs to Deploy One Person to Afghanistan for One Year .................................................. 21
Appendix III: Department of State’s Bureau of Diplomatic Security Obligations
   and Estimated Expenditures For Afghanistan ...................................................................................... 24
Appendix IV: Department of State's Total Expenditures and Unliquidated
   Obligations through January 2011 for the Afghanistan Civilian Uplift ................................................. 25
Appendix V: Comments from the Secretary of State’s Special Representative for
   Afghanistan and Pakistan ..................................................................................................................... 27
Appendix VI: Comments from the Department of State’s Bureau of Resource
   Management and the SIGAR and State OIG Response ........................................................................ 30
Appendix VII: Comments from the Department of Homeland Security .................................................... 35


TABLES

Table 1: Estimate of Costs to Deploy a Civilian Employee to Afghanistan for One
    Year ......................................................................................................................................................... 4
Table 2: Actual and Projected Civilian Uplift Personnel Deployed to Afghanistan,
    by Agency and Fiscal Year....................................................................................................................... 6
Table 3: Agency Expenditures, Projected Expenditures, and Unliquidated
    Obligations to Directly Fund the Deployment of Civilian Uplift Personnel in
    Afghanistan ($ in thousands), by Fiscal Year .......................................................................................... 8
Table 4: State Transfers to Agencies Providing Civilian Employees to Support the
    Uplift ($ in thousands) ......................................................................................................................... 10
Table 5: USAID Transfers to the Department of Commerce for the Civilian Uplift
    ($ in thousands) .................................................................................................................................... 11
Table I: Department of State’s Bureau of Diplomatic Security Obligations and
    Estimated Expenditures for Afghanistan, Fiscal Year 2009 through Fiscal Year
    2011 (To-March 2011) .......................................................................................................................... 24



SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                                                               Page iv
Table II: Department of State’s Total Expenditures and Unliquidated Obligations
    Through January 2011 for the Afghanistan Civilian Uplift ................................................................... 25




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                                 Page v
ACRONYMS

Commerce                                   Department of Commerce
CSCS                                       Capital Security Cost Sharing
DHS                                        Department of Homeland Security
DOD                                        Department of Defense
DOJ                                        Department of Justice
DS                                         State Bureau of Diplomatic Security
FS                                         Foreign Service
FY                                         Fiscal Year
GS                                         General Schedule of the Civil Service
HHS                                        Department of Health and Human Services
ICASS                                      International Cooperative Administrative Support Services
OBO                                        State Bureau of Overseas Buildings Operations
RM                                         State Bureau of Resource Management
R&R                                        Rest and Recuperation
RRB                                        Regional Rest Break
SCA                                        State Bureau of South and Central Asian Affairs
SIGAR                                      Special Inspector General for Afghanistan Reconstruction
SRAP                                       Special Representative for Afghanistan and Pakistan
State                                      Department of State
State OIG                                  Department of State Office of Inspector General
Transportation                             Department of Transportation
Treasury                                   Department of Treasury
USDA                                       U.S. Department of Agriculture
USAID                                      U.S. Agency for International Development
USFOR-A                                    U.S. Forces-Afghanistan




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                             Page vi
       The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 Billion, and State
      Should Continue to Strengthen Its Management and Oversight of the Funds
                               Transferred to Other Agencies


In 2009, President Obama announced a new comprehensive U.S. strategy for Afghanistan aimed at
disrupting, dismantling, and defeating al-Qaeda and denying its access to safe havens. A key element of
the strategy is the expansion of civilian-led efforts to build Afghan governing capacity at all levels,
improve the rule of law, and initiate sustainable economic growth, primarily through agricultural
development. This effort has been supported by a significant increase, or “uplift,” in U.S. civilian
employees deployed to Afghanistan, from 320 personnel in January 2009 to over 1,200 authorized
positions as of May 31, 2011. Although the Department of State (State) and the U.S. Embassy in Kabul
play lead roles in funding and overseeing the uplift, it is an interagency effort, drawing personnel
primarily from State and the U.S. Agency for International Development (USAID), but also the
Departments of Agriculture (USDA), Justice (DOJ), Treasury, Transportation, Commerce, Health and
Human Services (HHS), and Homeland Security (DHS). State and USAID are the only two agencies
directly funded by Congress for uplift positions. Congress also authorized State to use appropriations to
transfer funds to other civilian agencies to support operations and assistance for Afghanistan. State
transfers funds to seven civilian departments under this authority. 1 The Department of Defense (DOD)
also plays a key role in supporting U.S. civilians by providing life support to civilians deployed to field
locations and providing a secure environment for civilians.

In February 2010, State’s Office of Inspector General (OIG) reported that the U.S. Embassy in Kabul may
face challenges in sustaining the additional personnel deployed under the civilian uplift and, therefore,
should evaluate the affordability of the civilian uplift. 2 In October 2010, the Special Inspector General
for Afghanistan Reconstruction (SIGAR) reported on the types and number of personnel provided to
implement the civilian uplift and the extent to which the life and operational support needs of these
personnel had been met. 3 In that audit, SIGAR raised several concerns, including the difficulty that the
U.S. government may encounter in sustaining the civilian uplift at current levels.

Although the civilian uplift is a key component of the President’s strategy in Afghanistan, no agency has
conducted a comprehensive assessment of the costs of establishing and sustaining the uplift. SIGAR and
State OIG jointly conducted this audit to (1) determine the number of personnel and associated costs of
the civilian uplift, (2) evaluate State’s mechanisms for transferring funds to other agencies to support


1
 Public Laws Numbers 111-32, 111-117, and 111-212 authorize the Secretary of State to transfer funds to any
department or agency of the United States, upon the concurrence of the head of such department or agency, to
support operations in and assistance for Afghanistan and to carry out the provisions of the Foreign Assistance Act
of 1961.
2
    Report Number ISP-I-10-32A.
3
 See SIGAR Audit-11-2, U.S. Civilian Uplift in Afghanistan is Progressing but Some Key Issues Merit Further
Examination as Implementation Continues, October 26, 2010.
SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                    Page 1
civilian uplift personnel, and (3) assess the costs of sustaining and supporting the civilian presence in
Afghanistan and State’s plans to address these costs.

To address our objectives, we obtained data from civilian agencies that deploy personnel to Afghanistan.
Specifically, we requested that they identify the number of Afghanistan-based positions authorized as
part of the uplift and the number of personnel who filled these positions in fiscal years (FY) 2009, 2010,
and 2011. 4 We also collected data from the agencies regarding expenditures and obligations to support
civilian uplift employees deployed to Afghanistan. We examined State processes to transfer funds to
other agencies and identified factors that could affect the cost of sustaining the civilian uplift, such as
life support services provided to U.S. civilians by the U.S. military and coalition partners. Finally, we
interviewed key officials from each of the agencies involved. See Appendix I for a complete discussion
of our scope and methodology.


BACKGROUND

In March 2009, President Obama outlined a new U.S. strategy for Afghanistan. 5 In support of this
strategy, U.S. Embassy Kabul and U.S. Forces-Afghanistan (USFOR-A) 6 released the United States
Government Integrated Civilian-Military Campaign Plan for Support to Afghanistan in August 2009, and
the Secretary of State signed the Afghanistan and Pakistan Regional Stabilization Strategy in February
2010. These documents outlined broad U.S. reconstruction goals to improve security, build Afghan
governance capacity, enhance rule of law, and lay the foundation for sustainable development. To
achieve these goals, the President announced that the United States would send additional troops to
help secure Afghanistan, particularly in the more unstable eastern and southern regions of the country.
To complement the increased military presence, the new strategy also called for a substantial increase
in the number of civilian personnel and associated resources for civilian-led assistance efforts.

The uplift is intended to help the Afghan government build capacity to govern effectively at the national
and sub-national level. For the purposes of this report, civilian uplift personnel are defined as
U.S. government civilian employees 7 deployed to Afghanistan under Chief of Mission authority 8 after
January 2009 to support the campaign for Afghanistan. The 320 employees in place before the uplift are
referred to as “base” employees.




4
 For fiscal year 2011, State and USAID provided the number of filled positions as of March 2011, while other
agencies provided projections of the number of positions expected to be filled by the end of fiscal year 2011.
5
 The U.S. Strategy for Afghanistan refers to the strategy announced in a March 27, 2009 speech, and reiterated in
a December 1, 2009, speech delivered by President Obama.
6
 U.S. Forces-Afghanistan is the functioning command and control headquarters for U.S. forces operating in
Afghanistan, and is intended to ensure effective integration and coordination between U.S. and coalition forces.
7
 Contractor personnel were included in our accounting of uplift personnel only if they were filling civilian uplift
positions. Third-party contractors were not included in uplift counts. However, costs incurred from contractors to
support the civilian uplift were included in the cost estimation.
8
 According to National Security Decision Directive 38, the Chief of Mission, also referred to as U.S. Ambassador to
a certain country or other specified entity, has full responsibility for the direction, coordination, and supervision of
all U.S. government executive branch employees in that country, except for Voice of America correspondents on
official assignment and employees under the command of a U.S. area military commander. See 22 U.S.C. § 3927.



SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                       Page 2
State and USAID are the primary U.S. government agencies charged with conducting foreign policy and
implementing the U.S. government’s foreign assistance strategy and, therefore, are the key
implementing agencies of the civilian uplift in Afghanistan. Congress authorized State to use
appropriations to transfer funds to other civilian agencies to support operations and assistance for
Afghanistan. In addition, Congress authorized USAID to fund other agencies’ uplift positions, and USAID
has used this authority to fund one Commerce uplift position.

According to State officials, the Chief of Mission at the U.S. Embassy in Kabul formulates personnel and
associated budget requirements needed to fulfill the U.S. government’s nonmilitary strategy for
Afghanistan reconstruction. Officials at State’s Bureau of South and Central Asian Affairs (SCA) review
the Embassy’s requirements and coordinate within State and with other civilian agencies to determine
the personnel numbers for State bureaus and other agencies. These officials, in consultation with senior
leadership in other departments, determine the final staffing needs and authorize positions in Kabul and
in the field to support the U.S. government strategy for reconstruction in Afghanistan. After staffing
targets are determined, SCA officials work with officials from the other department to determine the
funding levels required to deploy the uplift personnel. SCA works closely with the Office of the
Secretary of State’s Special Representative for Afghanistan and Pakistan (SRAP) to manage and oversee
the civilian uplift. SRAP is responsible for coordinating across the U.S. government to meet U.S. strategic
goals in the region.

Typically, the U.S. government spends between $425,926 and $570,998 to support the deployment of
one U.S. government civilian to Afghanistan for a 1-year assignment. Actual agency costs vary
depending on factors such as the salary level of the deployed employee, fees for life support services at
the Embassy and in the field, and individual agencies overtime policies. These costs are broken down in
table 1 and described in more detail in appendix II.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                          Page 3
Table 1: Estimate of Costs to Deploy a Civilian Employee to Afghanistan for One Year
                                      Cost Items                                                     Cost Range a
A) Salary and Benefits:
                  Salary - planning assumptions for a civil service position and for a            $110,000 - $122,733
                  Foreign Service position
                  Salary for training period
                                               a                                                          $9,441

                  Danger pay-35% of base pay
                                                   b                                                $38,500 - $42,957

                  Post differential-35% of base pay
                                                       b                                            $38,500 - $42,957

                  Sunday differential-5% of base pay
                                                           b                                         $5,500 - $6,137
                  Overtime compensation                                                             $22,000 - $30,683
                  Special differential-20% of base pay (only for a Foreign Service                  $22,000 - $24,547
                  Positions)
                  Benefits-28% of base pay                                                          $30,800 - $37,009
                  Separate maintenance allowance of the base pay (only for                          $12,516 - $17,300
                  Foreign Service positions)

                  R&R and RRBs budgeted for a position in Afghanistan                               $5,785 - $21,000

Total salary and benefits range (The range indicated is not the total sum of all
the line items in this table because some categories are not applicable to                        $266,300 - $310,216
certain positions).
B) Other direct expenses for the position:
                                                                                                                   c
                  Mandatory Afghanistan training costs (including per diem)                             $10,432

                  Deployment travel                                                                 $25,000 - $48,983

                  Medical evacuation                                                                     $28,120

                  International Cooperative Administrative Support Services                        $37,000 - $150,000
                  (ICASS)
                                                                                                                   d
                  Housing (non ICASS housing and infrastructure costs)                                  $45,000

                                                                                                   $ 36,000 - $48,701
                  Department of Defense (DOD) civilian life support in the field
                  Capital Security Cost Sharing                                                     $1,626 - $22,657

                 Field life support kits                                                                 $15,000
Total other direct expenses (The range indicated is not the total sum of all the
line items in this table because some categories are not applicable to certain                    $159,626 - $242,657
positions).
 Total Cost Estimate Range for One Position                                                      $425,926 - $570,998
Source: SIGAR analysis based on information provided by State and USAID.
Note: This model does not take into consideration the agencies’ headquarters staff support costs for the agencies’ Afghanistan
positions in Washington D.C. or the 15 days transitional leave/expenses for employees departing Afghanistan.
a
  Based on State and USAID Afghanistan Position Planning Tools.
b
  Calculated based on the salary range mentioned above.
c
  Based on USAID data. State’s training costs are not broken down on a per person basis.
d
  USAID pays for housing through ICASS in Afghanistan.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                             Page 4
In addition to the costs detailed in the table above, the U.S. government incurs costs to support civilians
in Afghanistan that cannot be calculated on a per person basis. These include, for example:

     •   Security: In addition to certain security costs charged on a per person basis, State’s Bureau of
         Diplomatic Security (DS) provides security for civilian employees deployed to Afghanistan. 9 DS
         officials estimated that the total expenses for security in Afghanistan from fiscal year 2009
         through March 2011, was approximately $491 million.
     •   Infrastructure of the U.S. Mission Compounds: State has obligated over $700 million for housing
         and office space required to support uplift personnel.


THE NUMBER OF CIVILIAN EMPLOYEES ASSIGNED TO AFGHANISTAN HAS INCREASED BY 720
SINCE 2009, AT AN ESTIMATED COST OF NEARLY $2 BILLION

The U.S. civilian uplift in Afghanistan represents a significant investment of resources. The number of
civilian employees deployed or assigned to deploy to Afghanistan has increased by 720, from 320 in
January 2009 to a total of 1,040 through the end of fiscal year 2011, at a cost of nearly $2 billion. 10 State
and USAID account for the majority of uplift personnel, contributing a combined 74 percent of uplift
personnel through fiscal year 2011. Uplift personnel are implementing multiple programs to advance
governance, rule of law, and development—key objectives of the U.S. effort for Afghanistan
reconstruction. According to agency officials, agencies plan to continue deploying additional personnel
throughout fiscal year 2012.

U.S. Government Agencies Are Projected to Deploy at Least 720 Additional Personnel by the
End of Fiscal Year 2011

Agencies have increased the number of uplift personnel assigned to Afghanistan each fiscal year since
2009, increasing the number of personnel by 720 for a total of 1,040 in fiscal year 2011. Table 2 depicts
the number of U.S. civilian personnel supporting the U.S. uplift in Afghanistan in fiscal years 2009
through 2011, by agency.




9
  The U.S. military and foreign coalition partners also provide secure environments for civilians deployed to field
locations in Afghanistan. DOD officials said security is provided without seeking reimbursement from State or
other agencies.
10
  SIGAR and State OIG also had increases in personnel in Afghanistan due to increased spending on programs and
operations. However, State does not include increases in SIGAR and State OIG personnel and associated costs in
the uplift counts and costs. The figure of 1,040 personnel reflects the summation of State’s actual civilian uplift
deployment as of March 31, 2011, and other agencies projected civilian uplift deployment as of the end of fiscal
year 2011. However, the total number of personnel at post fluctuates weekly due to factors such as personnel
rotations, personnel deployed on details, or rest breaks.



SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                     Page 5
Table 2: Actual and Projected Civilian Uplift Personnel Deployed to Afghanistan, by Agency and Fiscal
Yeara
Department                                      FY 2009                   FY 2010                      FY 2011

State                                                 77                      315                         309

USAID                                                 62                      199                         222

DOJ                                                     0                       62                         78
                                                                                                             b
USDA                                                    0                       44                        59

DHS                                                     0                       11                         25

Transportation                                          0                        1                         13

Treasury                                              11                        10                         12

Commerce                                                0                        1                           1

HHS                                                     0                        1                           1
        c
TOTAL                                                150                      644                         720
Source: SIGAR and State OIG analysis of data provided by each agency.
a
  The personnel numbers shown in this table are in addition to the 320 base positions in place before January 2009. State and
USAID figures represent actual positions filled as of the end of FY 2009 and 2010, and actual positions filled as of March 2011
for FY 2011. DOJ figures reflect the number of positions filled as of end of the first quarter of each fiscal year. All other
agencies reflect actual positions filled at the end of FY 2009 and 2010, and projected positions filled by the end of FY 2011.
While SIGAR and State OIG Afghanistan personnel and costs increased due to overall U.S. government operations and programs
in Afghanistan, these organizations’ personnel counts and associated costs are not included in this report.
b
  USDA FY 2011 personnel counts include 14 positions that USDA originally considered base positions and funded through direct
USDA appropriations in FY 2009 and 2010. However, in FY 2011, USDA officials reported that their appropriations for these 14
positions, as well as Washington, D.C. based support staff has been reduced to zero. USDA had not yet reached its allotment of
uplift positions funded by State and will use State funds to continue to fund the deployment of the 14 personnel, in addition to
other uplift personnel.
c
  The total shown for each year is cumulative. For example, the total for FY 2011 includes filled uplift positions in FY 2009, 2010,
and 2011.

State and USAID Account for over 70 Percent of the Civilian Uplift

As of fiscal year 2011, State and USAID personnel comprise 531 uplift personnel, or 74 percent of the
720 uplift personnel. As of fiscal year 2011, State accounted for 43 percent and USAID accounted for 31
percent of uplift personnel deployed to Afghanistan. State and USAID are engaged in a variety of
programs to advance governance and rule of law, such as mentoring Afghan government officials at the
national and sub-national levels. USAID also manages development programs, including the Local
Governance and Community Development program 11 and vouchers for increased production in
agriculture.



11
  The Local Governance and Community Development program assesses community needs and implements local
stability initiatives and maintains these initiatives through Afghan-led community development programs.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                                  Page 6
Prior to the civilian uplift, State had the largest civilian presence in Afghanistan. State has also
experienced the largest increase of any agency. Specifically, State increased its civilian personnel
deployed to Afghanistan from 192 in January 2009, to 501 in March 2011—an increase of 309 personnel.
State has an additional 81 authorized full-time equivalent positions for the civilian uplift as of
May 31, 2011, but the positions are currently unfilled. According to State officials from the Bureau of
South and Central Asian Affairs (SCA), they will continue to place additional civilian personnel in these
positions through fiscal years 2011 and 2012.

USAID had the second largest presence of any agency prior to the start of the uplift. USAID personnel
increased from 85 in January 2009 to 307 as of March 2011, an increase of 222 personnel. USAID has an
additional 80 authorized positions for Afghanistan that are currently unfilled. According to USAID
officials, they will continue to place additional U.S. civilians in these positions in fiscal years 2011 and
2012.

The Remaining Seven Civilian Agencies Account for a Total Increase of 189 Personnel, or approximately
26 Percent of the Uplift

As of June 2011, the other seven civilian agencies with a presence in Afghanistan accounted for an
increase of 189 personnel, or approximately 26 percent of the total civilian uplift. These agencies
provide personnel at the request and direction of the Chief of Mission in Afghanistan and State officials
in Washington in order to meet the mission’s strategic goals. The Chief of Mission determines the
number of authorized civilian uplift positions in consultation with each department.

DOJ accounted for an increase of 78 personnel, or 11 percent, of the total civilian uplift. The majority of
these uplift personnel are employees of the Drug Enforcement Administration who work on mentoring
and training Afghan law enforcement entities in an effort to promote the rule of law. In addition, they
provide leadership and guidance in the conduct of bilateral counternarcotics investigations and
operations. USDA has deployed 59 civilian uplift personnel as of June 2011, representing eight percent
of the total civilian uplift. These employees primarily mentor Afghan government officials at the Ministry
of Agriculture, Irrigation, and Livestock. The remaining five agencies account for approximately seven
percent of the total civilian uplift. DHS personnel advise, mentor, and train Afghan border, customs, and
related entities to enforce Afghan customs and immigration law. Treasury places technical experts at
Afghan government ministries where they provide assistance in four areas: strengthening budget and
financial accountability, combating economic crimes and corruption, building internal audit capacity and
increasing non-tax revenues, and achieving debt relief and improving debt management. Transportation
personnel advise officials at the Afghan Ministry of Transport and Civil Aviation on issues such as civil
aviation law and surface transportation planning. HHS personnel work on health programs, such as
programs to strengthen maternal and child health services in Afghanistan. Finally, Commerce personnel
assist with efforts to promote Afghanistan’s economic development and trade.

The U.S. Government Obligated nearly $1.7 Billion through Fiscal Year 2011 to Support the
Deployment of Uplift Civilians and to Provide Facilities and Services that Benefit Base and
Uplift Employees

The U.S. government obligated nearly $1.7 billion from fiscal year 2009 through fiscal year 2011 to fund
the civilian uplift, as well as to provide facilities and services that benefit both base and uplift
employees. The U.S. government has expended approximately $880 million of this $1.7 billion to
support the civilian uplift; about $782 million in additional funds has been obligated, but not yet



SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                           Page 7
expended. The $1.7 billion does not include additional costs for security in Afghanistan, which State’s
Bureau of Diplomatic Security has estimated was $491 million to support both base and uplift personnel.
Table 3 depicts all agency expenditures and obligations for fiscal years 2009 through 2011.

Table 3: Agency Expenditures, Projected Expenditures, and Unliquidated Obligations to Directly Fund
the Deployment of Civilian Uplift Personnel in Afghanistan ($ in thousands), by Fiscal Year
Agency                      FY 2009             FY 2010               FY 2011            Unliquidated                 Total
                     Expenditures
                                    a
                                          Expenditures
                                                        b
                                                                    Projected            Obligationsd
                                                                Expendituresc           (as of FY 2011)

                                                                            e                        e
State                     $116,445             $265,532            $69,262                 $778,748             $1,229,987

USAID                         3,873               66,777            169,293                           -            239,943

                                                                                                                           f
DOJ                           1,601               73,141              27,723                          -            102,465

DHS                                0              14,337              23,804                          -             38,141

USDA                          2,300               10,664              19,329                          -             32,293

Treasury                        995                3,995               6,428                    3,786               15,204

Transportation                     0                  78               2,719                          -               2,797

Commerce                           0                  52                 706                          -                 758

HHS                                0                 567                 500                          -               1,067

TOTAL                     $125,214             $435,143              $319,764                 $782,534          $1,662,655

Source: SIGAR and State OIG analysis of expenditure and obligation data provided by each agency.
Notes: Figures are rounded. A dash (-) indicates that no data were provided.
a
  For FY2009, all agencies provided data on actual expenditures, except for DOJ, which reported obligations.
b
   For FY2010, all agencies provided data on actual expenditures, except for DOJ, which reported obligations.
c
  For FY2011, State reported actual expenditures through January 2011. Treasury reported obligations. DOJ reported actual
obligations through March 31, 2011, which do not reflect the total DOJ obligations expected to occur in FY 2011. All other
agencies provided data on projected expenditures for FY 2011.
d
  Unliquidated obligations are funds that have been obligated, but not yet expended. State and Treasury were the only agencies
that reported unliquidated obligations.
e
  Actual expenditures and unliquidated obligations for SCA as of January 14, 2011, and Overseas Building Operations as of
February 2, 2011.
f
  DOJ totals reflect obligations in each fiscal year.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                            Page 8
State Obligated $1.2 Billion to Directly Fund the Deployment of Uplift Personnel through the First
Quarter of Fiscal Year 2011, and Spent an Additional $491 Million in Diplomatic Security Costs in
Afghanistan

From January 2009 through the first quarter of 2011, State obligated $1.2 billion toward the civilian
uplift effort. 12 It also spent an estimated $491 million on security costs for operations in Afghanistan. 13
State funds the civilian uplift primarily through SCA, and SCA reimburses other State bureaus that incur
costs to support the uplift effort. 14 The State Bureau of Overseas Buildings Operations (OBO) and DS
also receive direct appropriations to fund activities related to security and infrastructure in Afghanistan.
State (excluding DS) expended $451 million through January 2011 to support the uplift efforts and has
unliquidated obligations of an additional $779 million in funds to support the uplift. 15 (See appendix IV.)

OBO received appropriations, as well as transfers from other State bureaus, totaling $945 million to
construct office, housing, support and temporary facilities in Kabul and consulates in Herat and
Mazar-e-Sharif. The bureau’s funding came primarily from the Embassy Security, Construction, and
Maintenance appropriation, but State SCA and DS also transferred $62 million and $41 million,
respectively, to OBO. Of these funds, OBO expended $75 million and obligated an additional
$623 million, leaving $247 million unobligated. OBO is using these funds to provide accommodations
and office space for the continued growth in staffing. For example, OBO includes developing permanent
buildings for classified and unclassified office space, housing units, and support facilities. To provide
space during this construction, non-permanent housing has been recently completed and 896 non-
permanent desks are expected to be completed this September. The consulates in Herat and
Mazar-e-Sharif are temporary facilities housed in pre-existing buildings that will provide space for
100 desks (Herat) and 37 desks (Mazar).

DS estimated that it obligated $491 million for security operations in Afghanistan from the beginning of
fiscal year 2009 through March 2011. Security expenses include the provision of physical security
infrastructure (such as blast walls), the Embassy guard force, salaries for DS personnel, security for
ground transportation, and security equipment such as armored vehicles. DS does not develop budgets
on a country-by-country basis and does not distinguish between base and uplift personnel when
providing security for U.S. civilians. Therefore, these costs represent an estimate of costs to provide
security to base and uplift personnel in Afghanistan since the start of the civilian uplift. The DS
estimated costs are presented in a separate schedule (see appendix III).

In addition to funding State’s internal bureaus, SCA transferred approximately $250.4 million to seven
U.S. agencies participating in the civilian uplift. Table 4 depicts funding transfers from State to these
agencies for the purpose of funding costs associated with the deployment of personnel to Afghanistan.




12
  State OIG analysis of financial data provided by the Bureaus of Resource Management (RM) and SCA, as of
January 14, 2011. Also included are OBO’s reported expenses and unliquidated obligations as of February 2, 2011.
13
  State OIG analysis of financial data as provided by DS, March 2011.
14
  Other bureaus within State (except for the Bureaus of Diplomatic Security and Overseas Buildings Operations)
are reimbursed by SCA for their contributions towards the uplift effort.
15
  Of the $449 million of outlays by SCA, $262 million were SCA reimbursements to other bureaus within the
department for their assistance with the uplift effort.
SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                  Page 9
Table 4: State Transfers to Agencies Providing Civilian Employees to Support the Uplift
($ in thousands)
                                                                                       a
Agency                         FY 2009                FY 2010               FY 2011                 TOTAL

DOJ                            $74,660             $25,469                 $47,239             $147,368
                                       b
DHS                             15,290                  4,948               18,264                38,502

USDA                              8,700               15,350                15,861                39,911

Treasury                          4,950                 4,315                 4,780               14,045

Transportation                    3,700                 1,372                4,024
                                                                                   c               9,096

HHS                                 622                    0                    500                1,122

Commerce                               0                   0                    402                  402

TOTAL                         $107,922             $51,454                 $91,070             $250,446
Source: State OIG and SIGAR analysis of State data.
a
  FY 2011 transfers are through May 31, 2011, and do not necessarily reflect the total of transfers that will occur in FY 2011. FY
2011 transfers include funds that were originally transferred in FY 2010, but were unexpended and unobligated in that year and
made available for agencies in FY 2011.
b
  $7 million of these transferred funds were transferred to DOD by DHS to support the Border Mentor Task Force Contractor
program, and not to support DHS direct hire uplift personnel. DHS officials expect an additional $7-$9 million to be transferred
in FY 2011 for this program and not for DHS direct-hire personnel.
c
  $1,305,000 represents an expenditure transfer whereby SCA obligated for the transfer to Transportation and the intra-
governmental payment and collection system collected for the services provided.

USAID Has Obligated an Estimated $240 Million to Support USAID uplift personnel in Afghanistan from
May 2009 through Fiscal Year 2011

Since May 2009, USAID has obligated almost $240 million to deploy civilian uplift personnel. 16 USAID
expects to spend an additional $321 million in fiscal year 2012 to deploy and support both base and
uplift personnel. We estimate that USAID will spend at least $232 million of this $321 million to deploy
uplift personnel, with the remainder spent on base employees. Consistent with its authority, USAID also
funds one Commerce uplift position and has provided Commerce with $1 million since fiscal year 2009
for this position (see table 5).

All Other U.S. Agencies Projected Expenses of Approximately $193 Million through Fiscal Year 2011

All agencies other than State and USAID projected to spend approximately $193 million through fiscal
year 2011, using funds transferred by State. Most of the expenses for these agencies are related to
salaries and benefits; therefore, agency expenditures correlate with the number of civilian uplift
personnel. For example, DOJ has more civilian uplift personnel deployed to Afghanistan than any other
agency besides State and USAID. As such, DOJ has obligated over $100 million in funds transferred from
State to support its uplift personnel—more than half of the expenditures and obligations of the other
non-State and non-USAID agencies. The majority of DOJ’s obligations were for the Drug Enforcement
Administration, which provided the majority of DOJ uplift personnel. The Drug Enforcement

16
  USAID provided costs for all USAID personnel and did not separate costs by civilian uplift personnel. We
calculated the cost for USAID civilian uplift personnel by estimating the average cost per person deployed per
month, and we calculated the share of costs related to uplift personnel by determining the number of months
each individual was deployed to Afghanistan in each fiscal year. For a complete explanation of our methodology,
see appendix I.
SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                               Page 10
Administration also received State funding for specialized services, such as support for aviation
resources, vehicles, and specialized investigative units.

DHS projects to spend $38 million, the second highest projection of any agency other than State and
USAID. State transfers to DHS included $7 million for the Border Mentor Task Force contractor
program; 17 these funds were not used to support DHS uplift personnel. DHS officials expect to use an
additional $8-$9 million in fiscal year 2011 for the Border Mentor Contract. DHS officials told us they
transferred this $7 million to DOD, which administers the contract. DHS also received $1.2 million from
State for the purpose of funding rental vehicles for DHS personnel in Afghanistan.

USDA projects to spend $32 million through fiscal year 2011, the third highest projection of any agency
other than State and USAID, and has the second most uplift personnel of any agency other than State
and USAID. The majority of USDA personnel are deployed to field locations, where support costs are
lower due to reduced ICASS charges.

Table 5 depicts the transfer from USAID to Commerce for the purpose of funding costs associated with
the deployment of the Commerce uplift employee to Afghanistan.

Table 5: USAID Transfers to the Department of Commerce for the Civilian Uplift ($ in thousands)
                                                                                       a
Agency                                 FY 2009           FY 2010             FY 2011           TOTAL

Department of Commerce                        0              500                 500          1,000
Source: Department of Commerce
a
 Commerce officials noted FY 2011 funds had not been transferred as of May 17, 2011, but $500,000 in funds are expected
before the end of FY 2011.



STATE HAS NOT DEVELOPED FORMAL AGREEMENTS TO TRANSFER AND OVERSEE FUNDS
PROVIDED TO OTHER AGENCIES

State has not developed formal agreements with agencies, such as memoranda of understanding, to
establish how transferred funds may be used, and State does not consistently monitor agencies’ use of
transferred funds. According to State’s Foreign Affairs Manual, 18 obligations should be supported by
documentary evidence of binding agreements in writing between U.S. agencies regarding the use of
funds. Additionally, government-wide internal control standards highlight the importance of having
systems in place for ensuring that funds are spent for their intended purpose. 19 State commonly uses
formal agreements regarding the transfer of funds with other agencies and foreign governments. For
example, State has memoranda of understanding with DOD and foreign coalition partners regarding the
provision of life support for U.S. civilians located at DOD and coalition controlled field locations in
Afghanistan. State also has memoranda of understanding with DOD regarding DOD reimbursements to
State for the provision of communications and security services to the Afghan Major Crimes Task Force.

17
  The Border Mentor Program is managed by DHS. Border Mentors are provided by a contractor using a DOD
administered contract. DHS officials told us Border Mentors are skilled former Customs and Border Protection
employees who advise, coach, and mentor the Afghan Border Police, Afghan Customs leaders and their
subordinates.
18
  U.S. Department of State Foreign Affairs Manual Volume 4—Financial Management, Section 080, Administrative
Control of Funds. See 4 FAM 082.6(1), citing 31 U.S.C. § 1501.
19
  Standards for Internal Control in the Federal Government, November 1999, U.S. Government Accountability
Office.
SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                        Page 11
Moreover, USAID has a memorandum of understanding with Commerce for the funding of the one
Commerce uplift position. This memorandum includes provisions for the appropriate use and
monitoring of funds. 20 However, we found that State does not follow these best practices when
transferring funds to other agencies to fund their uplift personnel in Afghanistan.

The supplemental appropriations act of 2009 authorized State to transfer funds to agencies to support
operations in and assistance for Afghanistan. 21 Within State, SCA transfers the funds to other agencies.
SCA officials stated that the legislation is vague, but told us that they and the Office of Management and
Budget determined the intent was to authorize the transfer of funds to support the costs of uplift
personnel only. SCA has transferred funds to agencies primarily for the purpose of funding civilian uplift
personnel and not to support programs, with some exceptions. For example, in fiscal year 2011, State
approved a DOJ request for funding that included training for Afghan authorities.

However, SCA has used a largely informal process for transferring these funds and ensuring that funds
are used as intended. For example, SCA officials told us they rely on e-mail communication and verbal
discussions with agency officials to communicate how funds can be spent. These officials also stated
that they have held group meetings with agencies to discuss appropriate uses of the transferred funds,
which Office of Management and Budget officials attended. Furthermore, SCA made explicit in its
financial plan submitted to Congress that it would transfer funds to support uplift personnel. SCA
officials told us that they review agencies’ spending proposals before approving any transfers and that it
is the agencies’ responsibility to monitor and report to State on their own use of transferred funds. SCA
officials told us that they did not use a more formal mechanism to transfer funds, such as a
memorandum of understanding, because they were advised by officials in State’s Bureau of Resource
Management that they were not needed. According to SCA, these officials indicated that SCA’s financial
plan together with email and verbal communications adequately communicated State’s intent in
transferring the funds to other agencies. In commenting on a draft of this report, State’s Bureau of
Resource Management stated that appropriated funds were intended to be transferred expeditiously to
other agencies, and that State did not seek an oversight role in how other agencies budgeted for the
deployment of uplift personnel.

We found that this informal process is not sufficient for ensuring that funds are used for their intended
purpose, and that the use of formal written agreements between State and agencies that receive State
transfers would improve accountability of funds used for the civilian uplift. For example, in one
instance, we learned that State approved a transfer to Transportation in fiscal year 2009 of $3.7 million
intended to support the deployment of Federal Aviation Administration uplift personnel, as well as to
provide for training and equipment to Afghan officials. Transportation encountered difficulties and
delays in recruiting and deploying qualified personnel to Afghanistan and therefore did not expend or
obligate much of the transferred funds it received. In May 2010, Transportation programmed
$3.5 million of the $3.7 million to pay for projects including equipment and air traffic control training for
the Afghan Ministry of Transport and Civil Aviation. According to State, new Transportation staff came
on board in January 2011, and State officials instructed Transportation officials that transferred funds
should only be used for personnel costs. However, State officials were referring to funds transferred in
fiscal year 2011, and not funds from fiscal year 2009. Transportation officials indicated the new
personnel did not have access to their predecessors’ emails that contained the original State guidance
and were unaware that fiscal year 2009 State funds had been approved for equipment and training. As
a result, Transportation stopped plans to use the remaining $3.5 million from fiscal year 2009 for

20
  Memorandum of Agreement Between the United States Agency for International Development and the United
States Department of Commerce to Transfer Funds, signed May 27, 2010.
21
     P.L. Number 111-32.
SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                           Page 12
equipment and training, even though State originally approved a portion of the $3.7 million for these
purposes. These officials also noted that they would have preferred to have a memorandum of
understanding with State outlining how transferred funds could be used because they were not privy to
email or verbal exchanges that may have occurred between State and former Transportation officials.
They added that State required memoranda of understanding for similar funding transfers to support
operations in Iraq, and they were surprised that State did not continue to follow this practice for
Afghanistan.

As a result of our inquiries, Transportation officials conferred with State officials and determined that
State’s funds should be returned to the United States Treasury. However, as of August 2011,
Transportation had not yet returned the funds. Without more formal mechanisms in place to transfer
funds and to monitor their use, State places uplift funds at the risk of not being used for their intended
purpose, as occurred in the case of Transportation’s transferred funds.


THE COST OF SUPPORTING AND SUSTAINING THE CIVILIAN PRESENCE IN AFGHANISTAN WILL
LIKELY INCREASE, AND STATE FACES A NUMBER OF RELATED PLANNING CHALLENGES

State and other agencies are likely to experience increased costs related to an expanded civilian
presence in Afghanistan, and State faces challenges in planning for these contingencies. The U.S.
military’s withdrawal from Afghanistan, targeted for 2014, will likely lead to cost increases similar to
those experienced by State after the U.S. military withdrew from Iraq. A legislative proposal to
standardize pay and benefits for civilian uplift personnel from all agencies could also result in increased
costs for civilian agencies, which have not consistently provided the same level of benefits that State
accords its employees. Finally, the opening of two new consulates in Herat and Mazar-e-Sharif,
Afghanistan could increase costs. Although SCA officials have initiated planning to address these
matters, they face a number of planning challenges.

The U.S. Military’s Drawdown Will Likely Result in Increased Costs Related to U.S. Civilian
Personnel

The military drawdown in Afghanistan will likely result in increased costs for State, similar to those
experienced with the U.S. military drawdown in Iraq. U.S. military combat forces have been scheduled
to start withdrawing from Afghanistan in the summer of 2011 and complete the U.S. military withdrawal
by 2014, with combat forces withdrawing at a steady pace as Afghan security forces assume control of
security operations nationwide. The U.S. military withdrawal from Iraq suggests that this process will
present significant challenges for State, including increased costs associated with assuming some of
DOD’s previous security responsibilities. A 2009 State OIG report indicated that the U.S. military’s
withdrawal from Iraq could result in additional costs for State, such as providing convoy security for fuel,
food, and other supplies. 22 In 2010, State echoed these concerns, reporting that it would need to
perform certain tasks in Iraq that had been performed by DOD, such as convoy security, clearing travel
routes, recovering killed and wounded personnel, recovering damaged vehicles and downed aircraft,
and monitoring private security contractors. State’s Undersecretary for Management also noted in an
April 7, 2010, letter to DOD that State would have “a critical need for logistical and life support of a
magnitude and scale of complexity that was unprecedented in the history of the Department of State.” 23

22
   Performance Evaluation of Embassy Baghdad’s Transition Planning for a Reduced United States Military Presence
in Iraq, Report Number MERO-A-09-10, August 2009.
23
  Commission on Wartime Contracting in Iraq and Afghanistan, CWC Special report 3, Special Report on Iraq
Transition Planning, July 12, 2010.
SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                              Page 13
State officials confirmed to us that they expect their costs to increase as the military pulls out of
Afghanistan.

A Legislative Proposal to Standardize Pay and Benefits for All Civilian Employees Deployed to
Afghanistan May Result in Increased Costs for Civilian Agencies

A legislative proposal to standardize personnel policies for civilians deployed to certain locations,
including Afghanistan, could result in increased costs for civilian agencies. Civilian employees deployed
to Afghanistan, regardless of agency (except for those under the command of the U.S. military), fall
under the direction and supervision of the U.S. Chief of Mission in Afghanistan; however, civilians are
compensated under different pay systems, including the General Schedule and Foreign Service systems.
A report by the U.S. Government Accountability Office noted that two deployed civilians with
comparable salaries who work under different pay systems could receive different overtime pay
because the overtime rate is determined by the employee’s pay system and grade/band level. 24
Additionally, this report noted that rest breaks and leaves, which vary between civilian agencies, result
in different costs from agency to agency. For example, while it is State’s policy to provide for up to three
rest and recuperation breaks depending on the duration of the employee’s assignment, USDA foreign
service officers deployed to the field do not receive the same breaks.

Congress is considering legislative language that may be included in the FISCAL YEAR 2012 National
Defense Authorization Act requiring all agencies operating in Afghanistan to standardize pay and
incentive policies. State officials confirmed that, while this proposal would not increase the costs of
supporting State employees in Afghanistan, it could raise costs for other U.S. agencies that receive State
transfers and, therefore, State would need to increase the amount of transfers. The legislation would
authorize State to require all agencies deploying personnel to Afghanistan to provide the same
allowances and benefits as State prescribes for its employees on duty in combat zones. Executive
agencies would also be required to grant employees stationed in combat zones up to 10 workdays of
recuperation leave for each rest and recuperation trip.

New Consulates Could Increase Costs for State

According to officials in OBO, State modified plans for the development of two temporary consulates in
Herat and Mazar-e-Sharif to accommodate an increase in personnel due to the civilian uplift. Embassy
management officials noted that two consulates were established in Herat and Mazar-e-Sharif in 2011,
and OBO has developed temporary facilities to initially house the consulates. According to OBO, the
temporary Herat consulate was to have 20 desks and 30 beds; however, the plans were modified to
accommodate 100 desks and 70 beds due to the civilian uplift. Similarly, the temporary Mazar-e-Sharif
consulate was to have 20 desks, but the plans were redesigned to accommodate 37 desks. According to
SCA officials, State has not yet determined whether permanent consulates will be established in Herat
and Mazar-e-Sharif. However, OBO officials told us these temporary consulates may be replaced by
permanent consulates. If established, these posts could represent substantial additional costs for State.
For example, according to an official at the U.S. Embassy in Kabul, State would have to pay for supplies
and services, including food, motor pools, vehicle repair, air traffic control at the airport, crash and
rescue, medical evacuation, and hospital services, among many others. The State official said that these
items would likely constitute a significant cost increase.



24
  See GAO-09-562. Human Capital: Actions Needed to Better Track and Provide Timely and Accurate Compensation
and Medical Benefits to Deployed Federal Civilians, U.S. Government Accountability Office, June 26, 2009.
SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                              Page 14
State Has Initiated Plans to Address Costs of the Civilian Presence in Afghanistan, but Faces
Planning Challenges

SCA officials indicated that they have been planning “in earnest” for the past 6 months to address the
costs of supporting the civilian presence in Afghanistan; however, they face a number of planning
challenges. SCA officials told us that they have developed budget plans through fiscal year 2013 to
support the costs of the anticipated civilian presence in Afghanistan. Because these plans were pre-
decisional, we were unable to assess them. SCA officials also told us that, because of the similarities in
the Iraq and Afghanistan conflicts, they regularly consult their colleagues who were responsible for
transition planning in Iraq. Lessons learned from Iraq demonstrate the importance of careful planning.
For example, the Commission on Wartime Contracting found in a report on DOD-to-State transition
planning that planning for State’s operations in Iraq during the military drawdown and after the U.S.
military exit had not been sufficiently detailed. 25

While initial budget planning has occurred, SCA officials said that they face a number of challenges in
developing a longer-range, robust plan. First, they stated that uncertainty over their budget and that of
other civilian agencies makes planning difficult. The current emphasis on reducing the federal deficit
increases the likelihood that spending, including the budgets of agencies involved in the uplift, will be
reduced in coming years. An overall budget reduction could negatively affect the U.S. government’s
ability to implement its strategy in Afghanistan. Officials at agencies currently receiving transferred
funds from State to support their uplift personnel consistently told us that they would have to scale back
or discontinue their operations in Afghanistan if the State funding were eliminated. For example, HHS
and USDA officials noted they would have to completely eliminate their presence in Afghanistan if they
did not receive State transfers. However, in commenting on a draft of this report, officials from State’s
Bureau for Resource Management noted that, at least for fiscal year 2012, State is not likely to face
challenges from a budget standpoint. State has requested funding for Afghanistan operations through a
new funding title referred to as Overseas Contingency Operations, which is intended to reflect the
shared security missions of State and DOD and includes funding for extraordinary and temporary costs
that exceed the requirements of a normal embassy in a non-conflict zone. According to the bureau,
Congress is likely to fully fund this request for the coming fiscal year.

Second, SCA officials also said that, while they have some ability to plan for the costs of the civilian
presence in Afghanistan, a number of key policy decisions have not yet been made, complicating their
planning efforts. For example, SCA officials do not know exactly when the civilian presence in
Afghanistan will peak, how large the civilian presence will be at its high point, and when and how quickly
the number of civilians deployed to Afghanistan will decrease. These decisions will have to be made at
the highest levels of government. On June 23, 2011, Secretary Clinton noted in a testimony before the
Senate Foreign Relations Committee that the civilian uplift had reached its height. However, the
Secretary did not specify whether agencies would continue to deploy personnel to fill uplift positions
that are authorized but unfilled and did not provide details on when the uplift would start to decrease.


CONCLUSION

The U.S. civilian uplift in Afghanistan has come at considerable cost to the U.S. government. Our
analysis shows that the U.S. government has incurred nearly $2 billion to fund the uplift and that the
cost of maintaining a civilian presence in Afghanistan is likely to increase. However, State has not always

25
  Commission on Wartime Contracting in Iraq and Afghanistan, CWC Special report 3, Special Report on Iraq
Transition Planning, July 12, 2010.
SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                             Page 15
taken the steps necessary to safeguard these funds against improper use, such as developing formal
agreements with funded agencies that specify the intended use of the funds and allow for monitoring.
In addition, State faces a number of challenges in planning to support and sustain the civilian presence
in Afghanistan in the coming years. Given the uncertain budget environment and the lessons learned
from the transition in Iraq, it will be important for the most senior decision makers in the U.S.
government to reach agreement on the role of U.S. civilians in Afghanistan in a timely manner.


RECOMMENDATIONS

To improve the management and planning of the U.S. civilian uplift in Afghanistan, we are making two
recommendations to State’s Assistant Secretary for South and Central Asian Affairs to:

        1. Implement formal agreements, such as memoranda of understanding, with all agencies that
           receive State transfers to fund their uplift personnel to ensure funds are used for their
           intended purposes. These agreements should clearly detail the approved uses of funds and
           provide for the monitoring and oversight of the expenditure of funds.
        2. Ensure that the Department of Transportation returns the $3.5 million in funds that were
           unused to State or the U.S. Treasury.


AGENCY COMMENTS ON A DRAFT OF THIS REPORT

State and DHS provided comments on a draft of this report. These comments are reproduced in
appendices V-VII, respectively. Transportation officials told us that its comments were incorporated
into State’s comments. DOJ, DHS, USDA, Treasury and Commerce also provided technical comments,
which we have incorporated as appropriate.

State provided two sets of comments, one from SRAP, which commented on behalf of SCA, and one
from the Bureau of Resource Management.

    •    SRAP concurred with all the recommendations and identified steps to implement them.
         Specifically, SRAP indicated that beginning in FISCAL YEAR 2012, SCA plans to implement
         memoranda of agreement with agencies that receive State transfers. SRAP noted that the
         memoranda will require agencies to report details of their spending, and to make plans to
         return unused funds, if any. SRAP also indicated that the details of the memoranda are
         currently being developed. Additionally, SRAP noted that State and Transportation/Federal
         Aviation Administration have agreed to return $3.5 million in funds to the United States
         Treasury.

    •    State’s Bureau of Resource Management provided additional information on funding for the
         civilian operations in Afghanistan in FISCAL YEAR 2012 and outlined its perspective on some of
         the issues we raise in this report. Most notably, while the bureau did not object to our
         recommendation to establish formal agreements with agencies receiving transferred funds, it
         indicated that the legislation originally appropriating funds for the civilian uplift was expressly
         intended to avoid binding and formal agreements with recipient agencies. It also indicated that
         State did not request or seek an oversight role in how other civilian agencies budgeted for their
         staffing efforts. Therefore, the bureau suggested that formal written agreements with other
         agencies had been unnecessary. We disagree with this characterization of the legislation, as
         well as the bureau’s conclusions regarding the need for binding agreements. The legislation
SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                          Page 16
         originally appropriating funds for the civilian uplift states that the Secretary of State may
         transfer funds to any other agencies’ appropriations, upon the concurrence of the head of the
         agency, to support the agencies operations in Afghanistan or assistance to Afghanistan. The
         accompanying House Committee report also clearly addresses the Secretary’s authority to
         transfer funds to other agencies to support their operations in Afghanistan. While neither this
         act nor the committee report specifically require agreements with other agencies, nothing in
         the law or the accompanying House Committee report indicates a clear intent to avoid formal
         agreements. As we discuss in this report, it is a government-wide best practice to institute
         written agreements when transferring funds. Moreover, a formal written agreement is an
         effective means of establishing the concurrence of the head of the other agency, as required
         under the appropriations act. Furthermore, SRAP intends to implement our recommendation
         to use formal agreements with other agencies in FISCAL YEAR 2012.

In its comments, DHS did not comment on the recommendations but noted that it remains committed
to continuing its work in Afghanistan to minimize terrorist threats, build governing capacity, improve the
rule of law, and initiate sustainable economic growth.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                        Page 17
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the performance audit of the implementation and sustainability of the
U.S. civilian uplift in Afghanistan conducted jointly by the Office of the Special Inspector General for
Afghanistan Reconstruction and the State Department Office of Inspector General. The objectives of the
audit were to (1) determine the number of personnel and associated costs of the civilian uplift to date,
(2) evaluate State’s mechanisms for transferring funds to other agencies that deploy civilian uplift
personnel, and (3) assess the costs of sustaining and supporting the civilian presence in Afghanistan and
State’s plans to address these costs.

This audit was limited to costs associated with the deployment and necessary support of civilian
personnel deployed to Afghanistan after January 2009 to support U.S. goals for Afghanistan. The uplift
does not include the 320 “base” positions that were in place prior to the uplift.

To identify the number of civilian uplift personnel deployed to Afghanistan, we requested the U.S.
departments and agencies to identify their uplift positions created in addition to their recognized base
Afghanistan positions that existed prior to the civilian uplift. We then requested agencies to provide us
with personnel data regarding the civilian uplift positions that were actually filled in fiscal years 2009,
2010, and 2011. U.S. departments and agencies typically staff their positions on a 1-year rotation. In
some cases, U.S. departments and agencies filled uplift positions with personnel deployed to
Afghanistan on a long-term temporary duty basis, and these personnel were included in our analysis;
some uplift positions were filled by personal service contractors, and these positions were included in
our counts. For example, the U.S. Agency for International Development (USAID) personnel counts
include 44 employees on personal services contracts with the U.S. government for the purposes of filling
permanent direct hire positions. Our audit did not include short-term temporary duty personnel
deployed to Afghanistan who were not filling a permanent position and did not include third-party
contractors who provided support functions. We did not include Department of Defense (DOD) civilians
because the civilian uplift was intended to increase the presence and role of civilian agencies in
Afghanistan.

To determine the costs the U.S. government incurs to deploy one civilian employee to Afghanistan for
1 year, we obtained data from the U.S. departments and agencies that deploy these uplift civilian
personnel. We calculated the cost model from actual data on costs directly attributed to the
deployment of one civilian personnel to Afghanistan, including salaries, benefits, training, deployment
travel, and costs for using the mission’s services at post that fall under International Cooperative
Administrative Support Services (ICASS)—a system that the U.S. government uses to provide and to
share the cost of common administrative support at diplomatic missions and consular posts overseas,
life support and life support kits in the field, housing, and Capital Security Cost Sharing. U.S. agencies
that establish a civilian presence at the U.S. diplomatic mission in Afghanistan pay fees, on a per person
basis, to State to provide new, safe, secure, functional diplomatic and consular facilities and to replace
vulnerable facilities currently occupied by the mission.

In table 1, we calculated the cost ranges based on actual budget planning data information gathered
from State and USAID. We used average salary, benefit, travel and support costs as used by State and
USAID to calculate yearly costs for these categories. The table is presented in a range to reflect
differences in cost estimations used by State and USAID. Personnel costs vary depending on whether
personnel are deployed to the U.S. Embassy in Kabul or to field locations. Additionally, State uses
different planning assumptions for Foreign Service and civil service personnel. The table is not additive
because not all categories apply to all positions. The planning model does not necessarily incorporate
all potential costs associated with the deployment of personnel for 1-year; for example, this model did
SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                         Page 18
not take into consideration the agencies’ home offices staff support costs for the agencies’ Afghanistan
positions in Washington D.C. However, the range represents typical costs for the deployment of one
employee for 1 year to Afghanistan.

State was the lead agency for the civilian uplift in Afghanistan and incurred the majority of the costs
(over 70 percent) of all participating agencies. To determine State’s costs associated with the uplift, we
performed the following:

    •   obtained a list of the fund accounts used for the civilian uplift initiative from the Bureau of
        South and Central Asian Affairs and requested and obtained the total obligations and associated
        expenditures and unliquidated amounts for each of the funds identified, covering the period
        January 2009 through the first quarter of fiscal year 2011.
    •   summarized the financial data by grouping Budget Object Classification codes into major
        expense categories including salaries and benefits, training, travel and transportation,
        information technology, and housing.
    •   obtained and compiled obligation information from two State bureaus (Overseas Buildings
        Operations and Diplomatic Security (DS)) from fiscal year 2009 through February and March
        2011, respectively. DS did not distinguish operations in Afghanistan as directed toward base or
        uplift personnel positions and, therefore, did not separate costs between these two activities.
    •   identified and accounted for transfers between the various State bureaus supporting the uplift
        of civilian personnel, to prevent any double counting of costs.

Additionally, we identified and summarized all fund transfers made by State to other federal agencies,
for the purpose of funding the agencies’ civilian personnel deployed in Afghanistan, covering the period
October 1, 2008 through March 3, 2011. We also tested 100 percent of the transactions by tracing each
to its source documentation (Treasury’s Government Wide Accounting system). We also reviewed the
procedures State follows in executing the transfer of funds to other agencies.

In addition, we obtained and reviewed, for reasonableness, the estimated and projected costs for the
Afghanistan civilian uplift efforts for fiscal years 2011 and 2012, as developed by participating State
bureaus based upon their assumptions and calculations.

We also reviewed policies and procedures, as well as other relevant laws, regulations, and standards,
including appropriation laws that provided funding for the civilian uplift initiative in Afghanistan. This
included a review of selected sections of the Foreign Affairs Manual and the Foreign Affairs Handbook,
in addition to the Government Accountability Office’s internal control standards and other guidance
documents.

In addition, we interviewed State officials from the Bureaus of South and Central Asian Affairs (SCA) who
are responsible for overseeing the civilian uplift initiative in Afghanistan to obtain information on civilian
personnel deployed to Afghanistan and the costs to implement and sustain the increase of civilian
personnel in Afghanistan for fiscal years 2009 through 2012. We also interviewed officials from the
Bureau of Resource Management, the Bureau of Diplomatic Security and Foreign Missions, the Bureau
of Overseas Buildings Operations, and the Bureau of International Narcotics and Law Enforcement
Affairs to identify their costs associated with the civilian uplift initiative in Afghanistan.

Because State reimburses DOD for the provision of life support and security to civilians deployed to
provincial reconstruction teams, we incorporated the costs associated with this support in our analysis.

SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                            Page 19
To evaluate State’s internal controls for managing the uplift, we examined State processes regarding the
transfer of funds to other agencies, and the use of those funds by agencies.

We conducted our work in Washington, D.C. and Kabul, Afghanistan, from October 2010 to August 2011
in accordance with generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. The audit was
conducted by the Office of the Special Inspector General for Afghanistan Reconstruction and the
Department of State Office of Inspector General under the authority of Public Law No. 110-181, as
amended, the Inspector General Act of 1978, and the Inspector General Reform Act of 2008.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                      Page 20
APPPENDIX II: COSTS TO DEPLOY ONE PERSON TO AFGHANISTAN FOR ONE YEAR

It typically costs the U.S. government between $425,926 and $570,998 to deploy a civilian employee to
Afghanistan for a 1 year tour. Costs vary due to differences in salary, travel expenses, and whether an
employee works in the Embassy or in field locations. This estimated range does not include agencies’
headquarters support costs for Afghanistan positions, 15 days of transitional leave or home leave if the
employee will be deployed for another year-long tour in Afghanistan, and any other expenses that the
deploying agency may incur in the process of transitioning the employees back to their previous jobs
within the government, if applicable.

We constructed the total cost range estimate for deploying one position to Afghanistan based on the
following expenses:

     •   Salaries: Civilian employees deployed to Afghanistan are compensated for their work either by
         the U.S. government Civil Service General Schedule (GS) 26 or the Foreign Service (FS) schedule.
         U.S. agencies told us that they prefer to deploy civilians with considerable background
         experience to Afghanistan. Therefore, agencies typically deploy civilians at the higher end of the
         U.S. government pay scale (GS 14 and FS 1). In budget planning, State uses the amount of
         $110,000 as base salary for either the civil service or the foreign service positions, and USAID
         uses the amount of $122,733 as base salary for their Afghanistan positions in general.
     •   Danger Pay: Danger pay is additional compensation above basic salary for service at designated
         danger pay posts where civil insurrection, terrorism, or war conditions threaten physical harm
         or imminent danger to all U.S. government civilian employees. The U.S. government sets the
         danger pay level for Afghanistan at 35 percent of base salary (based on a standard 40 hour
         workweek) prorated for the number of days while deployed in Afghanistan. Danger pay
         compensation begins on the day of arrival in Afghanistan (the employee must be in country for
         4 hours or more to qualify) and ceases on the day of departure for both permanent or
         temporary employees deployed to Afghanistan.
     •   Post Differential: Post differential is additional hardship pay over basic salary for employees
         deployed to serve at foreign areas where conditions or the environment differ substantially
         from conditions or the environment in the continental United States and warrant additional
         compensation as a recruitment and retention incentive. State provides post differential for
         civilian employees deployed to Afghanistan at the maximum level of 35 percent of base salary.
         All civilian employees assigned for a 1 year tour, detailed, or on temporary duty to Afghanistan
         must spend 42 consecutive days at post before the post differential is activated; the differential
         is retroactive to the day the employee arrived at post.
     •   Sunday Differential: The U.S. government provides full-time civilian employees in Afghanistan
         with additional compensation for hours of work on Sunday, as it is the start of the regular
         workweek at the U.S. Mission in Afghanistan. Sunday premium pay is equal to 25 percent of the
         employee’s rate of basic salary for each of the 8 hours of Sunday work, which means 5 percent
         of base salary.
     •   Overtime: The U.S. Office of Personnel Management defines overtime pay as pay for hours of
         work officially ordered or approved in excess of 8 hours in a day or 40 hours in an administrative
         workweek. Civilian employees in Afghanistan are entitled to overtime compensation depending

26
  Civil service uplift employees would earn regular base pay, including locality pay adjustments for their duty
station in the United States.

SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                   Page 21
           on their position and level of apointment. USAID sets its personnel overtime at the rate of
           25 percent of base salary. State sets overtime at 20 percent of base salary. USDA follows U.S.
           Mission policy and allows for civilians working in Kabul to work 35 hours of overtime per pay
           period and for civilians working in the field in Afghanistan to work 45 hours of overtime per pay
           period. The overtime compensation rate is an employee’s base salary and an additional
           percentage based on the employee’s GS level.
       •   Special Differential: 27 A special differential is additional compensation for substantial amounts
           of extra work expected to be performed by Foreign Service direct hire generalists and is paid in
           lieu of overtime pay. State sets this differential at 20 percent of base salary for foreign service
           direct hire generalists. The dollar amount that State uses for budget planning is $22,000.
       •   Separate Maintenance Allowance: The U.S. government provides this allowance to assist a
           Foreign Service employee in meeting the additional expenses of supporting family members
           located outside the employee's foreign post of assignment. The U.S. government applies this
           allowance to Foreign Service employees working in Afghanistan. The maximum amount used to
           plan a position’s budget in Afghanistan is $17,300 for State and $12,516 for USAID.
       •   Deployment Travel: The U.S. government pays for civilian employee travel to Afghanistan,
           primarily including airfare, hotel, meals and shipment of household effects. State estimates this
           cost at $25,000; USAID estimates it at $48,983.
       •   Mandatory Afghanistan Training: State requires all civilian employees deployed to Afghanistan
           to attend Foreign Affairs Counter Threat training (at the cost of $3,895) and Afghanistan
           Familiarization training (at the cost of $960). Civilian personnel deployed to locations outside of
           the U.S. mission in Kabul receive extra training, including the Afghanistan Provincial
           Reconstruction Team Orientation (at the cost of $960) and the Interagency Integrated Civilian-
           Military Training Exercise for Afghanistan (at the cost of $5,880). Some individual departments
           and agencies require additional specialized training for their employees deployed to Afghanistan;
           for example, Department of Justice civilian employees attend specialized training for their job
           assignments in Afghanistan.
       •   Rest and Recuperation (R&R) and Regional Rest Breaks (RRB): The U.S. government provides
           civilians deployed to Afghanistan designated rest breaks after they have spent a certain number
           of days in country. For R&R, the government pays travel costs for employees to return home for
           22 days, including travel time. For RRB, the government pays to transport employees to
           regional locations for quick breaks, including 5 days of paid administrative leave and no more
           than a total of 7 days, including travel time. There are two options for taking these types of
           leave during a 1-year deployment: three R&Rs or two R&Rs and three RRBs. State estimates
           $21,000 per year for the cost of these breaks, while USAID estimates $5,785.
       •   International Cooperative Administrative Support Services (ICASS): ICASS is the principal means
           by which the U.S. government provides and shares the cost of common administrative support
           at its diplomatic and consular missions overseas. U.S. government agencies operating in
           Afghanistan pay ICASS charges for each of their civilian employees to benefit from services
           provided by the U.S. Mission in Afghanistan, such as motor pool operations and vehicle
           maintenance, travel services, mail and messenger services, and reception and telephone system
           services. ICASS fees range from $100,000 to $150,000 per person.
       •   Residential Housing for Uplift Personnel: State’s Bureau of Overseas Buildings Operations
           provides housing for the uplift personnel in Afghanistan. In fiscal years 2009 and 2010, the Near

27
     3 FAM 3139.4.
SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                              Page 22
        East Asia and South and Central Asian Affairs Bureaus provided Overseas Building Operations
        (OBO) $41,616,000 to accommodate uplift personnel in Afghanistan. State budgets $45,000 for
        housing (non ICASS housing and infrastructure costs) for a single position in Afghanistan.
    •   DOD Life Support in the Field: U.S. Force-Afghanistan provides security for uplift personnel
        located in the field in Afghanistan. DOD charges State $3,044 each month (or $101.47 per day)
        for each civilian deployed to a DOD-controlled provincial reconstruction team in Afghanistan.
    •   Capital Security Cost Sharing (CSCS): The U.S. agencies that establish a civilian presence at the
        U.S. diplomatic mission in Afghanistan pay fees, on a per person basis, to State to provide new,
        safe, secure, functional diplomatic and consular facilities and to replace vulnerable facilities
        currently occupied by the mission. The CSCS program charges the departments and agencies for
        each authorized or existing position in the U.S. diplomatic facilities and for each projected
        position above current authorized positions in new Embassy compounds. State estimates the
        CSCS costs for a Controlled Access Area (where sensitive information is processed) at $22,657,
        Non-Controlled Access Area (where sensitive information is not processed) at $8,803, and for
        Non-Office Areas, such as housing, at $1,626.
    •   Field Life Support Kits: The U.S. government issues kits to civilians deployed to work at field
        locations in Afghanistan, which include key life support supplies, such as satellite phones and
        protective equipment. State estimates the cost of these kits as $15,000.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                         Page 23
APPENDIX III: DEPARTMENT OF STATE’S BUREAU OF DIPLOMATIC SECURITY OBLIGATIONS
AND ESTIMATED EXPENDITURES FOR AFGHANISTAN

The Department of State’s civilian uplift effort has been funded primarily by three department bureaus:
South and Central Asian Affairs (SCA), Overseas Buildings Operations (OBO), and Diplomatic Security
(DS). We summarized DS’s reported estimated expenses and unliquidated obligations for operations in
Afghanistan. DS’s outlays are presented separately from SCA and OBO’s outlays, as they represent cost
estimates, not actual costs, and are not specific to the civilian uplift.

Table I: Department of State’s Bureau of Diplomatic Security Obligations and Estimated Expenditures
for Afghanistan, Fiscal Year 2009 through Fiscal Year 2011 (To-March 2011)a
      Type of Expense                FY 2009            FY 2010 Obligations             FY 2011                 Total Costs
                                               b
                                    Obligations            (includes ULOs)             Obligations
                                  (includes ULOs)                                  (thru March 2011)
                                                                                    (includes ULOs)
Personnel Comp & Benefits          $10,137,920.44             $15,686,866.02           $17,350,118.39           $43,174,904.85

Travel and Transportation               167,032.81             10,651,413.29               922,626.49            11,741,072.59

Housing (excluding                                -                           --              3,639.10                 3,639.10
  transfers to OBO)

Telecommunications and                   75,805.46                238,303.48               110,238.09               424,347.03
  Information Technology
  (IT)
Training                              2,172,262.00              4,423,203.00                   960.00             6,596,425.00
Security (DS funded)                  2,741,906.38            140,474,566.85            48,068,537.90           191,285,011.13
                           c
Other Contract Services              58,605,954.01            172,860,041.12             2,377,249.42           233,843,244.55
Other Miscellaneous                   1,029,895.21              2,480,380.28               305,811.49             3,816,086.98
           d
  Expenses
Totals                             $74,930,776.31           $346,814,774.04            $69,139,180.88          $490,884,731.23
Source: State OIG analysis of financial data as provided by DS, March 2011.
Note: This schedule represents total estimated costs of Diplomatic Security in Afghanistan (FY 2009 – March 2011)
a
  DS neither distinguishes costs for either civilian uplift or base personnel nor does it track costs by country. OIG requested DS
to provide estimates of their costs for Afghanistan for the period FY2009 thru March 2011.
b
  FY09, FY10, & FY11 data represent when the dollar amount was obligated. DS provided the date of the original obligation and
the amount of the obligation intended for Afghanistan. DS did not provide clear details as to the amount spent – or dates when
spent – and any amount that remains unliquidated for Afghanistan.
c
 The Other Contract Services Category incorporates Budget Object Codes (BOC) 2589 (Other Contract Services Not Otherwise
Classified). BOC 2589 covers various miscellaneous contractual services.
d
  For example: grants, miscellaneous supplies, office equipment and furnishings, and utilities.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                              Page 24
  APPENDIX IV: DEPARTMENT OF STATE'S TOTAL EXPENDITURES AND UNLIQUIDATED
  OBLIGATIONS THROUGH JANUARY 2011 FOR THE AFGHANISTAN CIVILIAN UPLIFT

  The Department of State’s civilian uplift effort has been funded primarily by three department bureaus:
  South and Central Asian Affairs (SCA), Overseas Building Operations (OBO), and Diplomatic Security (DS).
  The SCA bureau serves as the primary conduit for uplift funding and, accordingly, reimbursed the other
  bureaus involved for services or personnel provided in support of this effort. These reimbursements are
  reflected in the financial records of the SCA bureau. We identified the relevant funds and projects
  associated with the uplift for both SCA and OBO and summarized the reported expenses and
  unliquidated obligations in the table below. We noted that air transportation (Air Wing) and OBO
  Project costs (under Housing) combined accounted for 75 percent of SCA’s and OBO’s financial
  commitment.

  Table II: Department of State’s Total Expenditures and Unliquidated Obligations Through January 2011
  for the Afghanistan Civilian Uplifta
Type of                  FY 2009             FY 2010            FY 2011               Total                 Total      Total Expenses &
        b                                                                                 c
Expense                 Expenses            Expenses           Expenses           Expenses          Unliquidated           Unliquidated
                                                                                                     Obligations             Obligations
Personnel            $3,424,338.34        $50,625,779.81    $24,646,690.72    $78,696,808.87    $35,083,628.34        $ 113,780,437.21
Compensation
& Benefits
Travel and            8,926,006.58        102,853,128.14     27,711,609.54    139,490,744.26     67,435,574.58          206,926,318.84
Transportation
Air Wing
Travel and              816,986.82          4,170,668.51        989,412.03       5,977,067.36    20,813,885.37           26,790,952.73
Transportation
– Other
Housing &            53,024,618.80         20,841,799.76      1,402,091.17     75,268,509.73    622,841,587.16          698,110,096.89
Offices – OBO
         d
Projects
Housing –             3,557,932.26          3,238,436.96        256,967.50       7,053,336.72        32,401.19            7,085,737.91
Other
Telecommuni-         15,935,355.43         55,495,438.19      3,693,693.34     75,124,486.96      2,931,275.13           78,055,762.09
cations and
Information
Technology (IT)
Training                217,741.11          7,435,104.00         88,623.99       7,741,469.10       478,244.21            8,219,713.31
Security                220,046.68            521,498.41        673,511.61       1,415,056.70       947,464.99            2,362,521.69
(SCA funded)
Other Contract       29,717,051.10         10,115,263.19      6,685,628.62     46,517,942.91     15,284,808.73           61,802,751.64
         e
Services
Other                   605,235.84         10,234,562.98      3,113,814.64     13,953,613.46     12,899,014.32           26,852,627.78
Miscellaneous
           f
Expenses
Totals             $116,445,312.96      $265,531,679.95     $69,262,043.16   $451,239,036.07   $778,747,884.02       $1,229,986,920.09
  Source: State OIG analysis of financial data provided by the Bureaus of Resource Management (RM) and SCA, as of January 14,
  2011. Also included are OBO’s reported expenses and unliquidated obligations.
  a
    The Bureau of Diplomatic Security (DS) expenses are presented in a separate table as DS did not distinguish costs between
  uplift and base personnel.
  b
    Inter-agency transfers are not included in this table.
  c
   Expenses include amounts that SCA reimbursed other bureaus within State. Neither SCA nor RM identified whether these
  transferred funds have since been spent, are obligated, or are still available – except for OBO which reported their expenses.
  Transfers from SCA to DS were excluded as DS supplied their own financial data.



  SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                              Page 25
d
  OBO’s projects include: New Office Annex/Housing and Temporary Facilities in Kabul; Consulate Herat, and Consulate Mazar-e-
Sharif.
e
  This incorporates Budget Object Code 2589 (Other Contract Services Not Otherwise Classified), which covers various
miscellaneous contractual services, such as training, personnel compensation, International Cooperative Administrative
Support Services (ICASS) payments, housing, and contract labor.
f
 Examples of these costs include: grants, misc. supplies, office equipment & furnishings, utilities, & heavy duty equipment.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                          Page 26
APPENDIX V: COMMENTS FROM THE SECRETARY OF STATE’S SPECIAL REPRESENTATIVE FOR
AFGHANISTAN AND PAKISTAN




                                                                  United States Department of Stat<

                                                                  WlIShington, D. C 20520


                                                                       August 4, 201 1

             MEMORANDUM

             TO:          OIG - Harold W. Geisel
                          SIGAR- Herbert Richardson

             FROM         S/SRAP-Daniel Feldman

             SUBJECT: Draft SIGAR Report on Afghanistan Civilian Uplift

             I appreciate the opportunity to review and provide comments on the Draft Report,
             "The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 Billion, and State
             Needs to Strengthen its Management and Oversight of the Funds Transferred to
             Other Agencies. "

             SJGAR 's draft report declares (pg 13) that State has not provided sufficient
             processes to ensure that interagency transfer fund s are used for their intended
             purposes by the receiving agencies, but provided only one example of a problem to
             docwnent this assertion. The report cites a May 2010 Department of
             TransportationlFederal Aviation Administration (DOTIFAA) " reprogramming"
             effort to allocate $3.5 million in fund s for Afghan infrastructure and improvement
             projects not authorized by State .

             In fact, State did provide the FAA with guidance on what its expectations were
             \\~th respect to the use of that ftmd ing. Dtuing the first year of the inter-agency
             support, a nLUnber of non-personnel support requests were approved by the SCA
             bureau for supported agencies, including DOTIFAA, allowing for f1exibility in O,e
             use of the initial supplemental li.mds for the inter-agency effort. DOT/FAA was
             allocated approximately $3 .7 million in late FY2009 for the inter-agency support
             of the civilian uplift. The FAA requested the funds in order to place three (3)
             additional full-time aviation experts in country to mentor Ministry of Transport and
             Civi l Aviation (MOTCA) management and technical personnel in aviation
             disciplines, specifically aviation safety oversight, airport certification , and air
             tranic control training programs ($2.2 million), and for training/computer
             equipment and other support equipment ($ 1.5 million) for MOTCA technical
             personnel to organize and build their Afghanistan civil aviation technical expertise




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                            Page 27
                                                         -2-

             and infrastmcture. The Department of State did not at any time prohibit the use of
             2009 funding transferred to FAA for equipment and training for MOTCA
             personnel.

             The FAA lk1d difficulty hiring for the Uuee positions and have only recently begun
             their uplift activities. Since 2009, the FAA has expended/obligated very little of
             those original available ftmd s. When new FAA staff came on board in Janua ry
             20 II , they were told by State persolmel tlk1t interagency transfer funds were onl y
             to be used for civilian uplift and not for other purposes. The new FAA Manager
             gave direction to halt any obligations of the monies. The new FAA staff was
             unaware tilat State did originally approve some the funding for activity outside of
             the hiring of persolmel. We have clarified the situation with DOT/FAA, and the
             decision was made to return $3.5 million in funds to the United States Treasury.
             SCA is in discussion now with DOTIF AA on the mechani sm by which the funds
             will be returned.

             To prevent any miscommunication with federal agencies receiving uplift funding,
             SCA plans to implement an MOA for FY20 12 inter-agency transfers tl,at ,,~II
             specify via an attached agency request and approval notification the approved use
             of funds. Tllis MOA will also require agencies to report details of their spending
             to date at the beginning of the 4th quarter of the fi scal year, along with any plans to
             return excess funds . A fUlliI report at the end of U,e fi scal year ,,~II detail tl,e use of
             tlle funds transferred . Tllis will fonnalize the infonnal initial and interim reporting
             process already in place and add a final reporting reqttirement that can infonn the
             decision process in the next year. The specifics of the MOA are being discussed
             now.

             Given that there is only one exa mple to support tile conclusion that State Needs to
             Strengthen its Management and Oversight of the Funds Transferred to Other
             Agencies, and that one example involved no misuse of monies (as our comments
             demonstrate), we request that the title of the report be changed to reflect the
             report's contents. An alternate title such as "The U.S. Civilian Uplift in
             Afghanistan Has Cost Nearly $2 Bi llion, and State Is Strengtherting its
             Management and Oversight of the Funds Transferred to Other Agencies" would be
             accurate.



             CC:    SCA: Robert Blake




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                   Page 28
             Approved : S/SRAP: Dan Feldman, Deputy

             Drafted :    NE A-SCAlEX: B. Wilson, 72 18 1, 08/03120 11

             Cleared:     SRAP: JArzt -                      ok
                          NEA-SCAlEX: LLorullan -            ok
                          NEA-SCAlEX: LRichter -             ok




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift               Page 29
APPENDIX VI: COMMENTS FROM THE DEPARTMENT OF STATE’S BUREAU OF RESOURCE
MANAGEMENT AND THE SIGAR AND STATE OIG RESPONSE




                                                                        United States DCI)artm cnt 01" S tate
                                                                           fIi:I.\hil1.~/HH.   D.(', _"'0520

                                                                                                    AuguS! 23. 2011

             UNCLASSIFIED
             M EMORANDUM


             TO:             OIG - Harold W. Geisel
                                                                ;.yt   ?j '>
             FROM :          RMlEX - Philip 1. Schlaller I.. c-'/

             SU BJF.CT: Draft Report on The U.S. Civihul1 Uplift in Afghanistan Has Co.w Nearly S2
             Bi//;Ol(, and Slure Needs IU Sln:nglhen its I\lfcmag.:menl cmd OV(:rj'ight u/,h(1 Flll1ds THJJ1jjt:rJ"ed
             10 Olher Agencies (S IOhR Audit- II -17 and State OIO·AUD-003)

             The Bureau of Resoure!; Management, Orflce or Budget aDd Planning (RM/I:W) 'Ippredates the
             opportunity to review and comment on the draft OIGlSfGAR report " The u.,s', Civilian Uplift in
             Afghanistan Her.'; e mf Nearly 52 billion, and Stale Need,' to ,S'lrenKlhen ;/,0; Managemenl and
             Oversight oflhe Funds Trall.~ferred 10 Other Agencies." RMlIJP has worked closely wi th the
             Bureau of Sou th and Central Asian Affairs, other Department of Siale bureaus an.d offiees and
             the Ofticc of Management and Budget on the planni ng and execu tion of fund s to suppo rt U.S.
             civi lian dlorrs in Afghani !>tan. The continut!d support of thi s effort remains among the
             Department's highe.st priori tie .

             The COITUllcnts below ,~durcss specific assertions in the report gcnnanc to RM/BP's
             responsi bilities for budget ronnulat io n and ..:xccut ion of Stale Department appropriations.
             part icularl y Ihe Diplomatic and Consul ar Program s acco unt that has bome many t)f costs cited in
             the report.

             The report'.s assertiou that the "Civilian Uplift" -- compri.sil)g tbe increase of 320 to J040
             perso nnel- has cost " neltrly $2 billion'" is misle.. ding and not adequately supported by the
             analysis in tbe report.

             A.s outlined on pages 7-9 o f th e draft rcport, the $ 1,662.7 million in obli gati ons represcnt'S the
             total obligations in..::urred by the Department of Stare and othl!r civilian agencies over FY2009-
             FY201 I to suppon the civilian presence in Afghanistan. including " base" and "upli l1"
             cnlployces. Not only is- this amount $.337 mill ion less than the amount cited in the report's title.
             it docs not clearly Jjstinguisb between the ' fi xed' costo; of the U.S. Mission to Arghanistan's       "S'-e-e-"S"'ig-a-r--,I
             personnel , security and faci li li es and the ' variablc' costs driven on ly by the growth in staffing       d St t
             si ne. FY2009. Of the $1.230 million in DOS coSL. cited on page 25, S698 .1 million is associatec ~~G              ae
             with "Housing and Offices" funded by ORO, yet thc rcpon docs not clearl y slate how OIG and
             SIGAR linked such costs to onl y "civi lian uplifi.'· pel'sonnd. Util izin g iht! 'COSI rangt! ' ci led on Comment 1
             Table 1 would ind icate !.hat the growth 01' 720 posi tions (1040 less 320) yields annual cost'S of
             $41 1 mill ion (\vithout adjusting for one-time expenses), and a l hICc~ycar cost ofSl. 2 billion. In
             contmst, the repon properly recognizes that Diplomatic Security operations to protect diplomatic
                                                       UNCLASSIFIED




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                                     Page 30
                                                                         2


            faci lities and personne l cannot reasOIHlhly be allocated between <base' versus ' uplifl ' posilions.
            and thus chamctcrizc:s those obligations separdtely. RM/ RP res}'I cctfull y sugges.ts the fo llowi ng
            clari fi cations in associated analysis and findings.
                 • Revise the auribut io n or"civi lian uplift" costs to include on ly those dircctly anribuH~ble =:-::-===--,1
                    to the increase of720 posi ti ons ciled in the I"t:port.                                      See SIGAR
               o    Revise refert:nces of Hnearly $2 billion" to align with specific amounts ci ted in the report and State
                    ei ther costs of the " civil ian uplin· t   01'   (he total cost of civilian operations.         OIG
                •   Updatc dtat ion on Table 3 ol" ' FY2011 Projected Expenditures" to reflect " FY20 J I            Comment 2
                    Act ual Expenditures Ql >~ (per footnote), or revi se to rcOccl more recent Q3 date). and
                    project accordingly,

            T b e report's cbaractcri7.atio n of th e. transfer and oversight of funds prt)\!idtd to other
            agencies provides constructive recommendat io ns, but d oc~ n ot account for the unique
            circ um ~ta nces of t be interagency ' civili an uplift ' and the C"Xtcnsil'c com munication between
            th e f)epartm ent of Sta te and other ~gencies uo utiliza tion of these funds.

            As noted in previous conununications regarding tbis audit, the interagency transfer authority was
            a special authority lo r the Diplo matic and COIl.'mlar Prognuns appropriation that was developed
            in the t:ontcxt of thc:: FY2009 Supplemental budget request. In the process of developing th at
            supplemental d uring the FaJl and Winter of2008. a number of civilia n age ncies developed
            specific proposals to slippo n Embassy Kabul's request for additional c ivilian expertise. The
            Depa nment of State and other agenc..:ies originally believed that each agency would subm it a
            separate appropriation request as part or an in teragency supplemental.

            However, given the range of agenc ies and potentia l appropriations subcommittees of juri sdiet inn .
            OMB dctcnnined that the most effecti\'e .lpproach would be to consolidate the associated
            funding under a single exi sting appropriation. along with authority to expeditiously trullsfe r the
            funds to the receiving agenc.: ies. The Department ofSmte did not request or seek an oversight
            role in howlllher civilian agencies budgeted fo r their statling efTorts, as the Dt::partmen t
            recognized that each agency has unique personnel autho rities and cost structures. The
            Depanment of State, OMB. and other agencies agreed tbat thc::ie transfers would he based upon
            the justification submi tt ed to Congress with the FY2009 supplemental and subsequent
            nm ificat ions.

            The specific D&CP appropriation provision enac ted in P.L. lll·3 2 W.1 S intended to enable a
            non-cxpcndiru re transfer of fun ds to the oth~r i1gencies to allow them to cover the costs ofthdr
            operatio ns in Afghan istan. Because {he Ot:partment of 'tate sought to transfer ~j12QJ1.ill2Hit~ ror
            the fund s to the other agencies. the language specifi cally did not refer to "expenses" nor d id i lli ~a
            categories of allowable expenses or require a ny tylX of agreement wi th the other ageneil!s, Thi s
            language was exprc$..<ily intended to avoid "bindin g agreemt;nts" and " forma l agreements"
            suggested as models on page 12 of the report. Uti li zation of the non.expenditure trnl,\sfer .n l~o
            provided other agencies with lhe greatest Ilt:xibility under their own legal authorities,
            Accordi ngly, the Depanment of State did not rC4ucst establishment of signed MOl Js in
            conncction with the execution o f the authority because the jus ti fications and spending plan
            submincd to Congress for these fund s clearl y articulated how each agency would be usi ng the
            transferred reSOim.:es:,




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                                 Page 31
                                                                )


            The om~c ofM;u'3gttnCm and Hudgct and the Department of Slate's appropriJl;OnS
            sub\:<.>mn,inccs have ~cc;,'ed regu la, updates on the al\ocation~ "ffunds lransfcm...J und~r the
            FY 20L!9 and FY 2010 lraIl,fcr auth.\lT;t;cs for Afshnni Slnn, which ha,'c nol dumge<l
            :>U~tanlivdy from the original fonnulation in 2009, The detailed accounting nfthese resources
            outlined on pages 8-10 of tile r.:port indicale~ tbat Stale and other age"cies have carefully trocked
            the "x~lIIion of these resources ov<.'1" the la" Ih,ee years.

            RMJBI' docs n-cogni'.Ge thaI the increasing "nnmlalizatiun" orlhis autllority may warrant the
            institution (, emU'" formalitc..l mct:hanism s to ,woid potential c"<JnfUS:Oll between agtncic"S on
            how the Ot:partment of State has justified thc>c ,,,WilKeS 10 COl1£.1'.'ss . We note that in lru:cit~-d
            example uribe 1)epartment ofTmnsportation. Ihe expenses inclll'TCd are witbin the scope ..,fthe
            transfer autoority and thcrcfon: w.;;rc not an "'improper usc" of "improperly oblig:ucd" II.S
            suggested in the report (page 16). even if Wme of the n<pen""," " "Crt: not contemplated in (he
            initial communications octween State and Trnnspmtatioll.

            While RMIllP does not objCl:t to TttOlnmendat;ons that the Department "rSt:l!C should cstabli>l\
            fom!al MOUs for (U!urc transfers, RM/Bf' respectful ly sugge~ts the follo ....·i0l: cbrifications in
            a.'i,<;ociakd anal)"'i s and findings.                                                                ",,,",,,,",,,,,,n
                  • Revise di scussi ()n ()f "bc:st prnc1ices" to more 3C(;urnTely reneet Ihe origjnal           See SIGAR and
                       c,i,,:umstanc.;;s and inTent of the speeifi~ I,,:nsfc'l" authority. as outli"....! above. ~ ~_te OI G
                  • Stnkc references 10 an ",mproper'" obJtgauon or Use of funds by The Department of r --umment 3
                    'I·ranspor~'tion.


            The rep<>r' ,",,,cu nudy ~u",,'''.rizcs the plan nin g cba ll en ges for the e i~jlian prcse nct in
            Afgb~ n ;st.tln, but overlook.. spt<:ific ~teps tMkCD by tbe f}cpanmcn t of State 10 add re ..
            f~l~rc fundin g eOn N ro S,


            The report reasonably statcs that the civilian upHt will fa~e futun: cballengcs associated wilh the
            drn .....down of US mi!itary forces. neW pay and benclit proposals, thc e~tablishmcm of new
            oonsuMes outside of Kabul , and mhcr policy unNrtainties. Ho ..... ever. in discU:oISing budl>~t3ry
            concern. for FY2013. the rcport docs !lOt address the D<:partnt~nt'~ FY2012 Budget request.
            FY2012 represents the li"t year si nce FY200~ th,lt thc Department docs not expe.:t to ha""
            supp lemental funds to support ils Afghanisl<ln operntions.

            In r~ognition of this transition, Til" FY2012 Budget requested the majority of Afghanis!"'!
            operational funding fo r seA lU!d DS within a new Overseas Comi'lScncy Operatinns (OCO)
            title, along with funding for SIGAR. and ongoing operations in Iraq and Pakistan. The          oeo
            concept represents limding lor The shared national security missions oftbe Dep.lrtment of
            Defen", and Department ,,[State, demonstrating a whck ofgovcmment approach to funding
            programs and oP<'['"Jtion~ in connict lones. OCO includes those extraordinary and tempo['"~ry
            COSI~ that exceed the reqni"'m~1!ts of a normal embassy in non-conllict ~onc. Inis criteria i,
            similar to thut oevdo)lcd by Ill.; Departmcnt of Defense, aoo like lJO)),lhe Uepartment of
            State's OCO r~'<Iucst was presentw in separate chapters nfThe President"s B"dge! and
            Dcpal1(l1cnt of STaTe Congressional lludget Ju.tifications.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                                  Page 32
                                                               4


             The Departmem Of SI,II("', FY2012 OCO Il lld get "."quests S99I. Hmillinn in operalio",,1 fuoding
             for Afghani>1an. including: S757.5 million for SeA. $18<1.9 minion for OS. and S44.4 milli"n ror
             SIGAR (f Y2012 CW. pp 770·775). The SCA requesl includes the projcctoo ongoing COSIS of
             the 'civili:m upl iii.' including the interagency transf", authority. The "'gular 'base' budget
             includes ao.Iditional [u!lds r,,, SC,\ and 1)S opcmtions. Initial congressional reaction 10 the
             Depanment (lfStutc   oco      !\.'~ucst ha~ been positiv(". The House ofRepresenmtivcs
             approprialions sub<;Qmmiltce for State ~nd USA I!) in FY2012 fully funded the OCO I\."qucst in
             ils f'Y2012 bill (~xcept lor ,h ifli"g a Paki'l"n l'rogrum 10 bOb). and OCO funding was
             specifically prot~ct"" in re""m debt ceiling n~got iations.

             RMIBP requests that the repon irn:lud~ the ."Uov.ing clarifications:
                • The Department ofStatc and OMU ha"e requested the maj.."ily..,f fY2012 Afghani~lan
                  <>peroti..,,,,,l co~1l;.. including the 'civi lian uplift·, 10 be fund~d through II new ~o\"erscas ",,,,o",";--' I
                   Comingency Opcrntion" title based On criteria similar 10 that used by DOD.                        See SIGAR
                • This prop"""l has bee11 well n.w vcd by Congress. mitil>al;ng concerns ahouI dramat; and Slale OIG
                   reductions in FY2012 funding.                                                                     Comme nt 4
                • The Department ofSIale intends 10 continue lIsi ng OCO as a key element in its FY201)
                   planning for military to civilian Iran.it;on in Afgh""iSlan.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                               Page 33
            SIGAl{ and Stat..: OIG Comm\:£1!s on State's Bureau of R..:sourue ~'hU1agement Leller

           1 As noted on page 9 of this report, OBO otTicials indicated the funds arc to provide accommodations and
           office space for the continued growth in sLaffing in Afghanistan. Th~refore, we d~tennined that these funds
           can be directly attributable to the civilian uphll.


           2. This report compiks all costs IISsocialed with th..: civilian uplift, including costs incurred for the
           dcployment of employees, as well as seeurit}' and infrastructure cos ts. Table I reflects typical costs tbat
           agencies incur 10 deploy om: ~mployc:e to Afghanistan for I yeur. Appendix II prov id~s more d~lail of these
           costs. As noted on pagl: 5 of this report , some costs cllnnol be calculated on a pt:r person basis, but can be
           IIttributed 10 thc civilian uplift. Thesc costs 1IT1: refledcd in table 3 and appendix IV. Therefore, multiply ing
           the number of uplift positions by the per pe!1;on range does not fully capture Ihe cost oflhe civilian uplift,
           which we have calculated to be at least $1.7 billion. The fi gure of nearly $2 bill ion takes in to account the
           almost $500 million that State's l3 urea u of Diplomatic Secunt}' estimates it expended to cover se.::unty costs
           in Afghanistan from fiscal Yl:ar 2009 through the first quarh:r of fiscal )'I:ar 20l1.


           3. Title XI of P.L. 111 -32 regllrding Di plomati .. and Consular Programs was clear thai the Sendary of State
           may Iransfer fund~ to any other agencies' appropriations, upon the concurrence of the head of the agency, to:
           (I) support the othcr agenc)"s operations in Afghanistan; (2) support the other ageoc)"s assislance for
           Afghanislan; or (3) carry oullhe provisions of Ihe }<' oroign Assistance A..I of 1961, as amended. The
           accompanyin g 1·louse Comminel: report also ..learly addresses the Secretary's aUlhority 10 transfer funds 10
           other ageneics 10 support their operations in Afghanistan. While neithcr Ihis act nor Ihe eommittce report
           sp<:<.:ifi..al1y refer to expenses or re(luire agreements with ot her agencies, nolhing in the law or Ihe
           accompanying 1·louse Comminee report indicates a clear inl\:£1tto IIvoid binding or formlllllgreem\:£1\s. As
           we discuss on page 11 of this report, a written, IOrmal agreement between agencies is a gove11lment-wide bes t
           practi ..e for ensuring thai funds are spent for their intended purposes. !I.'\oreover, a \'Tillen, formal agre<...-menl
           is an effective means of establishing the concurrence of the head of tbe ()Iher agency, as required under the
           appropriatiom acl. Wc also note that SCA has concurred Witll our recommendation and w ill implemcnt
           memoranda ofunder!!landing for fiscal year 2012 interagency transfer!! Ihat will require agcncie~ to report
           details of their spendi ng along wilh plans to return excess fund~.


           We have revised our discussion regarding the Department ofTmnspnrtation's use of SLate transferred             fund~
           to reflcet that they wcre not improperly obligated.

           4. We have add..:d language on page 15 of this r<...-port regarding the Ovel1iellS Contingen .. y Operations fundin g
           lind its rekvancc 10 our discussion ofbudgct uncertain ly.




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                                         Page 34
APPENDIX VII: COMMENTS FROM THE DEPARTMENT OF HOMELAND SECURITY




                                                                                    U.S. I'kp."m t.U ..f !t .. mtl."d s..,.rity
                                                                                                     Wl$hingtOn. IX :wn8




                                                                                           Homeland
                                                                                           Security

                                                          August 1,2011


             Mr. Albert H. HlU'ltinglon III
             Acting Assistant Inspecto r General for Audits
             Special Inspt."Ctor General for Afghanistan Rel'onstruction
             400 Army Navy Drive
             Arlington, VA 22202

             Re:     Draft Report S IGAl{ Auditll · 17, ''The U.S. Civilian Uplift in Afghanistan Has Cost
                     Nearly $2 Billion, and State Needs to Strengthen its Management and Oversight Oflhe
                     Funds Transferred to Other Agencies"

             Dear Mr. Huntingto n:

             Thank you for the ~~po~~t):' .I~..!yy~ ....: ?nd comment on this drjl.t): rs;por. Th ~ lJ.S. Qcpartm.cnt
             of flOriidand Security CDH S) appreciates the SpCl'iallnspcetor General for Afghanistan
             Rel:onstruction's work in planning and conducting its re view and issuing this report.

             The Department is pleased 10 note the report's acknowledgement of its role helping the Chief of
             Mission of the U.S . Embassy in Kabul, Afghanistan meet thc mission's slnltegic goals.
            Specifically, the DHS mission in Afghanistan is to support the bTiJader U.S. civil ian and military
            mission of disrupting, dismantling, and defeating al·Qaeda in Afghanistan and Pakistan and its
            extremist allies who threaten the Sl'1::ur1ty of the U.s. Homeland . DI·IS is fu lfilling this mission
            by providing oorder, customs, investigative, and imm igratio n expertise to the Afghan Border
            Police (Afghan Customs Department, Afghan MinislI)' of Transportation and Civil Aviation), the
            Afghan Ministry of Interior· Criminal lnvestigation Division, and the Afghan Min.istry of Finance
            in order to help them:

                    I) deny terrorists illicit flUld ing and illicit contraband sources:
                    2) enforce a secure oorder;
                    J) increase revenue flows to thc Afghan government; and
                    4) improve cross, border conunerce and fal:ilitate legitimate trade and travel.

            The DHS missio n is aligned with the Integrated Civilian· Military Campaign Plan. which works
            to rt.'<iul:C the infiltra tion of insurgents and illicit goo(h and improve (ross·border trade. OIlS




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                                        Page 35
              also supervises aimosI50 contract Border Mentors who supporl the DHS mission across
              Afg hanistan. DIIS ultimately seeks to transition responsibility for these dutics to thc Afghan
              governme nt as its capacities grow.

             Even thoug h this reporl docs not contain specific reeonunendations for DHS, the Department
             remains conunitted to continuing its work with the U.S. Dcparlment ofStnte and other relevant
             stakeholders in minimizing the terrorist threa ts in Afghanistan and effom to build Afghan
             gove rning capacity, improve the rule of law, and initiate sustainable economic growth.

             Again, thank you for the opportunity to review and comment on this draft report. Technical
             comments have been submilled under separate cover. We look forward to working with you on
             future Homeland Security issues.

                                                   Sincerely.


                                                  \  ~l ~  ,
                                                   ~~· I.cru~
                                                   Directo r
                                                   lkpartmental GAO/OIG Liaison Ollice




                                                                                                                2




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                                          Page 36
      (This report was conducted under the audit project code SIGAR-034A and OIG 11-AUD-3003).




SIGAR Audit-11-17 & State OIG AUD/SI-11-45 Civilian Uplift                                  Page 37
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              publically released reports, testimonies, and
                              correspondence on its Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     2530 Crystal Drive
                                     Arlington, VA 22202
State OIG’s Mission            The Office of Inspector General conducts independent
                               audits, inspections, and investigations that advance the
                               missions of the Department of State and the Broadcasting
                               Board of Governors. OIG provides leadership to:

                                  •   promote integrity, efficiency, effectiveness, and
                                      economy;
                                  •   prevent and detect waste, fraud, abuse, and
                                      mismanagement;
                                  •   identify vulnerabilities and recommend
                                      constructive solutions;
                                  •   offer expert assistance to improve Department and
                                      BBG operations;
                                  •   communicate timely, useful information that
                                      facilitates decision-making and achieves
                                      measurable gains; and
                                  •   keep the Department, BBG, and the Congress fully
                                      and currently informed.

Obtaining Copies of the U.S.   To obtain copies of State OIG documents at no cost, go to
Department of State OIG’s      OIG’s Web site (http://oig.state.gov/lbry/index.htm). State
Reports and Testimonies        OIG posts all released reports, testimonies, and
                               correspondence on its Web site. Redacted reports may also
                               be requested by following procedures stipulated in the
                               Freedom of Information Act (FOIA).

To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting a
Abuse in U.S. Department of    potential criminal case, abuse, or fraud contact OIG’s
State                          hotline:
                               Web: http://oig.state.gov/hotline/index.htm
                               Email: oighotline@state.gov
                               Mail:
                               Office of Inspector General
                               HOTLINE
                               P.O. Box 9778
                               Arlington, Virginia 22219
                               Phone: 202-647-3320 or 800-409-9926


Congressional and Public       Congressional Liaison:
Affairs                        Tom Burgess
                               Director of Congressional and Public Affairs
                               Office of Inspector General
                               (202) 663-0380
                               (202) 663-0390 (fax)
                               burgesst@state.gov
